<html>
<title> - H.R. 1721; H.R. 1900; H.R. 3122; H.R. 3656; H.R. 3657; AND, A DRAFT BILL ENTITLED ``VETERANS FAIR DEBT NOTICE ACT OF 2017''</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]




 
  H.R. 1721; H.R. 1900; H.R. 3122; H.R. 3656; H.R. 3657; AND, A DRAFT 
        BILL ENTITLED ``VETERANS FAIR DEBT NOTICE ACT OF 2017''

=======================================================================

                                HEARING

                               before the

       SUBCOMMITTEE ON DISABILITY ASSISTANCE AND MEMORIAL AFFAIRS

                                 of the

                     COMMITTEE ON VETERANS' AFFAIRS
                     U.S. HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                     WEDNESDAY, SEPTEMBER 13, 2017

                               __________

                           Serial No. 115-29

                               __________

       Printed for the use of the Committee on Veterans' Affairs
       
       
       
       
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]              



         Available via the World Wide Web: http://www.fdsys.gov
         
         
         
                             _________ 

                U.S. GOVERNMENT PUBLISHING OFFICE
                   
 30-375                  WASHINGTON : 2018         
 
 
 
 
         
         
                     COMMITTEE ON VETERANS' AFFAIRS

                   DAVID P. ROE, Tennessee, Chairman

GUS M. BILIRAKIS, Florida, Vice-     TIM WALZ, Minnesota, Ranking 
    Chairman                             Member
MIKE COFFMAN, Colorado               MARK TAKANO, California
BRAD R. WENSTRUP, Ohio               JULIA BROWNLEY, California
AMATA COLEMAN RADEWAGEN, American    ANN M. KUSTER, New Hampshire
    Samoa                            BETO O'ROURKE, Texas
MIKE BOST, Illinois                  KATHLEEN RICE, New York
BRUCE POLIQUIN, Maine                J. LUIS CORREA, California
NEAL DUNN, Florida                   KILILI SABLAN, Northern Mariana 
JODEY ARRINGTON, Texas                   Islands
JOHN RUTHERFORD, Florida             ELIZABETH ESTY, Connecticut
CLAY HIGGINS, Louisiana              SCOTT PETERS, California
JACK BERGMAN, Michigan
JIM BANKS, Indiana
JENNIFFER GONZALEZ-COLON, Puerto 
    Rico
                       Jon Towers, Staff Director
                 Ray Kelley, Democratic Staff Director

       SUBCOMMITTEE ON DISABILITY ASSISTANCE AND MEMORIAL AFFAIRS

                     MIKE BOST, Illinois, Chairman

MIKE COFFMAN, Colorado               ELIZABETH ESTY, Connecticut, 
AMATA RADEWAGEN, America Samoa           Ranking Member
JACK BERGMAN, Michigan               JULIA BROWNLEY, California
JIM BANKS, Indiana                   KILILI SABLAN, Northern Mariana 
                                         Islands

Pursuant to clause 2(e)(4) of Rule XI of the Rules of the House, public 
hearing records of the Committee on Veterans' Affairs are also 
published in electronic form. The printed hearing record remains the 
official version. Because electronic submissions are used to prepare 
both printed and electronic versions of the hearing record, the process 
of converting between various electronic formats may introduce 
unintentional errors or omissions. Such occurrences are inherent in the 
current publication process and should diminish as the process is 
further refined.


                            C O N T E N T S

                              ----------                              

                     Wednesday, September 13, 2017

                                                                   Page

H.R. 1721; H.R. 1900; H.R. 3122; H.R. 3656; H.R. 3657; And, A 
  Draft Bill Entitled ``Veterans Fair Debt Notice Act Of 2017''..     1

                           OPENING STATEMENTS

Honorable Mike Bost, Chairman....................................     1
Honorable Elizabeth Esty, Ranking Member.........................     2

                               WITNESSES

The Honorable Jim Banks, U.S. House of Representatives...........     2
The Honorable David Rouzer, U.S. House of Representatives........     3
The Honorable Steve Stivers, U.S. House of Representatives.......     3
The Honorable Joyce Beatty, U.S. House of Representatives........     4
The Honorable Chellie Pingree, U.S. House of Representatives.....     5
The Honorable Matt Cartwright, U.S. House of Representatives.....    10
Mr. Matthew T. Sullivan, Deputy Under Secretary for Finance and 
  Planning and Chief Financial Officer, National Cemetery 
  Administration, U. S. Department of Veterans Affairs...........     7
    Prepared Statement...........................................    28

        Accompanied by:

    Ms. Roberta Lowe, Director, Office of Internal Controls, 
        Acting Director, Debt Management Center, Office of 
        Management, U. S. Department of Veterans Affairs

    Ms. Cheryl Rawls, Director, Pension & Fiduciary Service, 
        Veterans Benefits Administration, U. S. Department of 
        Veterans Affairs

Ms. Elizabeth H. Curda, Director, Education, Workforce, and 
  Income Security Team, U.S. Government Accountability Office....     8
    Prepared Statement...........................................    31
Mr. Alex Zhang, Assistant Director, National Veterans Affairs and 
  Rehabilitation Division, The American Legion...................    15
    Prepared Statement...........................................    36
Mr. LeRoy Acosta, Assistant National Legislative Director, 
  Disabled American Veterans.....................................    17
    Prepared Statement...........................................    39
Mr. Blake Ortner, Deputy Government Relations Director, Paralyzed 
  Veterans of America............................................    18
    Prepared Statement...........................................    42
Ms. Kathleen Moakler, Director, Survivor Advocacy, Tragedy 
  Assistance Program for Survivors...............................    19
    Prepared Statement...........................................    43
Mr. John Towles, Deputy Director, National Legislative 
  Service,Veterans of Foreign Wars...............................    21
    Prepared Statement...........................................    46

                        STATEMENT FOR THE RECORD

COAL - Timeline CITYGovts Preservation...........................    48

                        QUESTIONS FOR THE RECORD

From Chairman Boost To VA........................................    50
Questions With Answers From VA...................................    51


  H.R. 1721; H.R. 1900; H.R. 3122; H.R. 3656; H.R. 3657; AND, A DRAFT 
        BILL ENTITLED ``VETERANS FAIR DEBT NOTICE ACT OF 2017''

                              ----------                              


                     Wednesday, September 13, 2017

             U.S. House of Representatives,
                    Committee on Veterans' Affairs,
                      Subcommittee on Disability Assistance
                                      and Memorial Affairs,
                                                   Washington, D.C.
    The Subcommittee met, pursuant to notice, at 10:30 a.m., in 
Room 334, Cannon House Office Building, Hon. Mike Bost, 
[Chairman of the Subcommittee] presiding.
    Present: Representatives Bost, Coffman, Banks, and Esty.
    Also present: Representatives Poliquin, and Cartwright.

       OPENING STATEMENT OF HONORABLE MIKE BOST, CHAIRMAN

    Mr. Bost. The Subcommittee will come to order.
    Thank you for joining us today to discuss legislation 
pending before the Subcommittee.
    The six bills on today's agenda address issues that are 
very important to veterans and their families. These bills 
would extend eligibility for memorial headstones and markers to 
family members whose remains are tragically not available for 
burial or cremation; extend benefits to family of veterans who 
are buried in tribal cemeteries; help protect vulnerable 
veterans from financial fraud; require VA to improve the 
notices they send to veterans who may have received an 
overpayment; remind us of the important contributions made by 
various cities to the World War efforts during World War II; 
and determine whether Congress should designate a museum in 
Columbus, Ohio as a National Veterans Memorial and Museum.
    We have a full agenda today, so in the interest of time I 
am going to keep everyone, including myself, to no more than 
the 5 minutes that we have set aside. I appreciate that the 
bills' sponsors have worked hard on these proposals and I am 
looking forward to the discussions, how these bills will impact 
veterans and their families.
    Now I am going to turn it over to distinguish Ranking 
Member Ms. Esty for her opening statements.

 OPENING STATEMENT OF HONORABLE ELIZABETH ESTY, RANKING MEMBER

    Ms. Esty. Thank you, Mr. Chairman. It is an honor to serve 
as the Ranking Member of the Disability Assistance and Memorial 
Affairs Committee, and as a Subcommittee we have already made 
significant progress towards improving the disability benefits 
system for all of our veterans. I am proud of our efforts to 
work in a very bipartisan manner to create substantive 
legislation that affects the lives of veterans and their 
families across America, but we still have more work to do.
    Thank you, Mr. Chairman, for your willingness to work 
across the aisle to listen to all Members of the Subcommittee, 
Democrats and Republicans, and for hosting today's hearing with 
a number of our distinguished colleagues, who have excellent 
proposals that we are eager to work with you in bringing 
forward in a way that can pass both the House, the Senate, and 
get signed by the President.
    Mr. Bost. Thank you, Ms. Esty.
    I am honored to be joined this morning by several of our 
colleagues who are going to be testifying about the bills they 
have sponsored: Representative Jim Banks of Indiana; 
Representative Bruce Poliquin of Maine; Representative David 
Rouzer of North Carolina; Representative Steve Stivers of Ohio; 
Representative Joyce Beatty of Ohio; Representative Matt 
Cartwright of Pennsylvania; and Representative Chellie Pingree 
of Maine.
    Welcome to all of you. I appreciate all of you taking the 
time out of your day to be here with us for sponsoring 
legislation that will help our Nation's veterans.
    We will begin on our Committee colleagues that are here and 
they will be speaking from the dais.
    Mr. Banks, you are recognized for 5 minutes to discuss H.R. 
3656.

            OPENING STATEMENT OF HONORABLE JIM BANKS

    Mr. Banks. Thank you, Mr. Chairman.
    Because of our veterans' service on behalf of each and 
every one of us, it is our responsibility to do our best in 
this Congress to serve them. And this commitment doesn't stop 
simply at their pay during their service, but we assist them in 
medical recovery and succeeding in the civilian world, and, 
just as importantly, memorializing the life that they lived 
once they have passed.
    Current law provides memorial headstones for veterans and 
for their spouses and children when their remains cannot be 
found, and those unfortunate circumstances sometimes occur in 
such cases as boating accidents or plane accidents.
    Public Law 105-368 provides for spouses and was enacted in 
1998. Public Law 109-461 provides for dependent children and 
was enacted in 2006. Both groups were eligible for the benefit 
as of the date of enactment; it was overlooked, though, that 
the latter date was not planned to be made consistent with the 
first.
    My bill, H.R. 3656, amends Title 38 of the United States 
Code to provide for a consistent eligibility date for spouses 
and dependent children. The date for both will be set at the 
current date for spouses, November 11, 1998. This is especially 
necessary for the unfortunate cases when a spouse and dependent 
child have passed away in the same accident during a period in 
which the child was ineligible for a headstone while the spouse 
was not. The father and/or mother was then able to be 
memorialized, yet not the child who was with them in this 
tragic incident. This is a practical and simple fix to take 
care of our veteran community, and to keep our commitment with 
them.
    And with that, Mr. Chairman, I yield back.
    Mr. Bost. Thank you, Mr. Banks.
    With that, I would like to go to Representative Rouzer, 
let's begin with you, and you are recognized to discuss your 
bill, H.R. 1721.

          OPENING STATEMENT OF HONORABLE DAVID ROUZER

    Mr. Rouzer. Thank you, Mr. Chairman and Members of the 
Committee, for the opportunity to testify before you on H.R. 
1721, a bill that would recognize one city each year as a World 
War II city for the work and contributions their citizens to 
the United States war effort, as well as to recognize all their 
work to continue to preserve that history.
    There are great and noble citizens in Wilmington, North 
Carolina who have worked hard to bring recognition to these 
many unspoken heroes. In cities all around the country, in 
fact, great Americans labored long, tireless hours in 
factories, shipyards, and in the fields working to ensure that 
our servicemembers were well fed and well equipped. Without the 
efforts of our industrial centers and cities, we would have 
never been able to win that brutal war.
    At present, there is no national recognition for cities or 
towns that made outstanding contributions to that war effort, 
or for those cities that made significant efforts to preserve 
that history. The primary purpose of this bill is to change 
that. Just as we must not forget those who gave all to defend 
the freedoms of the rest of us, we must not forget those who 
did whatever they could to see that the needs of our military 
were met.
    Let me take this opportunity to thank the Committee for 
recognizing this fact and including this bill language in H.R. 
677, the American Heroes COLA Act of 2015, which passed the 
House in the 114th Congress, and I certainly appreciate the 
Committee's consideration of this bill again.
    Mr. Chairman, I have a timeline dating from 1946 to present 
that details the work done by many fine citizens in Wilmington 
to preserve the history of the city's efforts during World War 
II and I ask that it be inserted in the record. And I 
appreciate, again, the opportunity to come before the Committee 
and testify today.
    Thank you, Mr. Chairman.
    Mr. Bost. Thank you, Mr. Rouzer.
    And prior to a previous agreement, Mr. Stivers, who is 
introducing H.R. 1900, will share his time with Ms. Beatty, who 
is the lead cosponsor.
    So, Mr. Stivers, you are recognized for 2 and a half 
minutes.

          OPENING STATEMENT OF HONORABLE STEVE STIVERS

    Mr. Stivers. Thank you very much.
    I want to thank Chairman Bost and Ranking Member Esty for 
moving this important hearing forward. Our bill will designate 
the National Veterans Memorial and Museum being built in 
Columbus, Ohio as the National Veterans Memorial and Museum. 
This center will serve as a civic landmark to honor, connect, 
and inspire and educate all Americans about the service and 
sacrifice of more than 22 million veterans in this country.
    And I know you are asking yourself why are we going to do 
this in Columbus, Ohio. There are a lot of reasons why. First 
of all, Ohio is the home of the sixth-largest veteran 
population in the United States, it is also within an 8-hour 
car ride of more than half the population of the United States. 
There are lots of other reasons why I think it makes sense and 
we will continue to move those forward.
    I want you to know that this center is fully funded for the 
construction, it was raised with private dollars. We have 
worked with our veterans service organizations, you will hear 
from some of them on a later panel, and most are supportive. I 
am open to putting in the bill some language that would require 
VSOs to have positions on the board, that is already the plan, 
and if that needs to be a condition of making sure that we 
actually get it as a Nation, I am fully supportive of that.
    I do want to thank Colonel Tom Moe, who is from Ohio and 
was a great member of our Armed Forces, retired from the United 
States Air Force after 85 flying missions, was captured in 
Vietnam and held in North Vietnam from 1968 through 1973. He 
has been very active in a lot of issues and is very involved in 
the building of this very important museum and memorial.
    I second want to thank Joyce Beatty, my lead Democrat 
sponsor of the bill. I have been told this is one of the few 
times when you have had bipartisan support for a bill like this 
on the testimony, I appreciate you making it available, and I 
yield the balance of my time to the Congresswoman.
    Mr. Bost. Mrs. Beatty, you are recognized for 2 and a half 
minutes.

          OPENING STATEMENT OF HONORABLE JOYCE BEATTY

    Mrs. Beatty. Thank you, Mr. Chairman, and to Ranking Member 
Esty. Thank you for holding this hearing today and letting us 
come in this bipartisan manner, and I want to echo everything 
that Congressman Stivers had said.
    I am very honored to be here and ask you for your 
consideration, because not only would this bill designate the 
Veterans Memorial and Museum being built, I must add, in my 3rd 
Congressional District in Ohio as a National Veterans Memorial 
and Museum, it would also honor countless veterans who have 
answered the call to serve, veterans like my father who would 
be so honored to know that I am doing this with Congressman 
Stivers today.
    I also want to thank the American Legion, the Paralyzed 
Veterans of America, the VFW, who are testifying in support of 
H.R. 1900 in the destination.
    I join Mr. Stivers not only in mentioning and talking about 
all the great work that the Colonel Tom Moe has done, but also 
with us I want to recognize Guy Worley and Amy Taylor, who are 
the project managers for the museum and they are here from 
Columbus.
    You have heard some of the statistics and data. Why Ohio? 
Because nearly 1 million veterans live in Ohio. You have heard 
about the 8-hour drive to nearly one half of the United States 
population, not to mention the 7.5 million veterans who also 
live within that 8-hour drive of Ohio, which is just a little 
less than 40 percent of the entire veterans population. It 
makes it a perfect destination for school trips, for family 
vacations, for veterans and the families and survivors.
    This was in part the brainchild of someone we all know who 
served so well in World War II, the legendary astronaut, former 
U.S. Senator from Ohio, John Glenn, a dear friend of mine, and 
who was also a constituent. If he were here today, he would 
highlight this museum and its memorial; he would talk about the 
300-foot reflective pool, he would talk about the memorial 
wall, he would talk about the sanctuary where veterans' 
families and others could go.
    So it is a tremendous idea and certainly we ask for your 
support.
    Mr. Bost. Thank you.
    Because I tell you what we would like to do now, we want to 
hear from Ms. Pingree of Maine to talk about H.R. 3705, which 
was noticed for the hearing, this hearing as a draft bill.
    And so you are recognized. Thank you for being here.

         OPENING STATEMENT OF HONORABLE CHELLIE PINGREE

    Ms. Pingree. Yes, thank you very much. Thank you, Chairman, 
and thank you also to Ranking Member Esty and to everyone on 
the Committee. Thank you for the work that you all do and for 
hearing this bill today.
    I believe my bill offers a commonsense fix to frustrations 
that some veterans in my district have shared with me, which I 
know veterans across the country have also experienced. My 
district office has been contacted by veterans who frankly are 
shocked and surprised to learn that they owe money to the VA 
for overpayment of benefits or some other reason, sometimes 
months or even years after the debts were incurred. By the time 
they inquire, they are told by the VA, hey, tough luck, the 
clock ran out. You have lost the ability to dispute, seek 
forgiveness, or create a payment plan for your alleged debt.
    We have seen single-mom veterans who can't get a home loan, 
newly transitioned servicemembers who struggle to reintegrate 
with garnished pay, recouped tax returns, and reduced 
disability payments, all because of assigned debts they knew 
nothing about because something, quote, ``got lost in the 
mail.''
    Current VA regulations provide that such debtors are 
notified by ordinary mail, which is deemed to provide a 
sufficient notification to a veteran of an outstanding debt and 
what his or her rights of redress are. The problem is that 
people move, mail can get lost. This is a particular challenge 
for homeless vets or those without fixed addresses.
    At times the error is on the VA side. Our caseworkers have 
uncovered instances where the VA sent mailings to addresses in 
states where the veteran has never lived.
    H.R. 3705, the Veterans Fair Debt Notice Act, proposes a 
very straightforward solution. It requires the VA to modify its 
regulations so that vet debt notifications are sent by 
certified mail, thus the VA would know that the veteran has 
actually received the letter.
    Likewise, it directs the VA to request that veterans 
seeking waivers use certified mail, so a veteran knows that the 
VA has received his or her response.
    We have heard from veterans who have submitted waivers, 
tried to create a payment plan, or tried to dispute the charges 
within the allotted time period, only to be told by the VA that 
the office never received the materials.
    Lastly, my bill requires the VA to use plain language in 
how it communicates to a veteran about his or her debts, and 
the rights to challenge it or seek accommodations.
    In my opinion, a veteran should not have to rely on a 
congressional caseworker to interpret the VA's bureaucratese. I 
think all of us know from our district offices, we often 
confront things that we think, while we are very happy to help, 
our office can do it for you, but you shouldn't need a Member 
of Congress to solve your problem.
    I urge the Committee to approve the Veterans Fair Debt 
Notice Act to promote accountability, consumer protection, and 
efficiencies in the VA system, and fairness to our veterans who 
deserve peace of mind.
    Finally, I appreciate the support of this legislation from 
veteran's service organizations who can attest to the 
frustrations that their members have experiences.
    Thank you and I yield back my time.
    Mr. Bost. Thank you, Ms. Pingree.
    We are waiting still on Mr. Cartwright. Let me do this 
right quick for the betterment of our Members who are here. We 
normally forgo any questions for our colleagues and any 
questions may be submitted in writing for the record, but we do 
want to thank you for being here today and I don't expect you 
to stand around and wait for the other Members to come in.
    But I believe we will--any questions can be submitted in 
writing and I believe we will do so, Members will need to have 
a quick turnaround on those questions. There are some questions 
that we were specifically wanting to ask up here, but we are 
going to forgo that and, if you receive those questions, if 
your staff could get back to us as quick as possible, I 
appreciate that.
    So thank you so much.
    We are going to recess for just a moment while waiting on a 
Member, but if you will just stay in your seats, we will be 
just a moment. We think he is coming down the hall.
    Mr. Bost. Okay. We are going to come back to order and I 
invite the second panel to the table, if you would.
    Thank you for being here.
    Joining us today is Mr. Matthew Sullivan, who is the Deputy 
Under Secretary for Finance and Planning and CFO of the 
National Cemetery Administration. Mr. Sullivan is accompanied 
by Ms. Roberta Lowe, the Director of Office and Internal 
Controls, and Acting Director of the Department Management 
Center of the Office of Management; and Cheryl Rawls, who is 
Director of Pensions & Fiduciary Services of the Veterans 
Benefits Administration.
    We are also joined by Ms. Elizabeth Curda, who is Director 
of Education and Security Team for GAO.
    Thank you all for being here.
    Mr. Sullivan, you are recognized for 5 minutes.

                STATEMENT OF MATTHEW T. SULLIVAN

    Mr. Sullivan. Thank you, Mr. Chairman.
    Mr. Chairman, Ranking Member Esty, and Members of the 
Committee, thank you for this opportunity to provide the views 
of the Department of Veterans Affairs on pending legislation 
affecting VA's programs. My written testimony provides more 
details on VA's views for the six bills on the agenda today; 
however, I will provide a few brief comments on them as well.
    First, VA recognizes the merits of both H.R. 1721, 
regarding the designation of American World War II cities; and 
H.R. 1900, the National Veterans Memorial and Museum Act. VA 
appreciates the intent behind these bills, but notes that each 
is programmatically outside VA's core mission.
    In addition, H.R. 1721 would potentially divert VA 
resources that are designated for veterans and their 
dependents.
    H.R. 3122, the Veterans Care Financial Protection Act of 
2017, would require VA to work with Federal agencies, states, 
and other appropriate experts to development and implement 
Federal and state standards for protecting pension claimants 
and beneficiaries from dishonest, predatory, or otherwise 
unlawful practices. VA agrees with the intent of the bill and 
welcomes the opportunity to share information about common 
predatory practices involving VA benefits, particular VA 
pension, with key financial regulators and stakeholders to help 
them identify and enforce existing standards, and develop 
additional standards where appropriate.
    However, VA suggests that the bill clarify the appropriate 
role of the collaborating entities, especially those with 
authority to enforce existing laws designed to protect veterans 
and elderly claimants.
    Both H.R. 3656 and H.R. 3657 are similar proposals and are 
similar to proposals in the President's budget for fiscal year 
2018, and VA supports them with minor modification.
    H.R. 3656 would establish a consistent applicability date 
for the provision of memorial headstones and markers for 
spouses, surviving spouses, and dependent children. A 
consistent applicability date would allow VA to provide a 
memorial headstone or marker, commonly referred to as the in-
memory-of marker or IMO, in a manner that creates less 
confusion and concern for claimants, as well streamline the 
administrative process for VA.
    However, VA does recommend a simple modification to the 
language of the amendment to make clear that the proposed 
effective date of November 11th, 1998 applies to the death of a 
spouse, surviving spouse, or dependent child of a veteran, and 
not the death of a veteran him or herself. We would be happy to 
work with the Subcommittee to provide suggested language for 
this modification.
    H.R. 3657 would ensure that eligible spouses and dependent 
children interred in tribal veteran's cemeteries have access to 
the same benefits as those in state veteran's cemeteries. Since 
1980, VA has been authorized to provide burial headstones and 
markers to eligible spouses and dependent children of veterans 
interred in veterans cemeteries owned by states, but not those 
owned by tribal organizations; this bill would eliminate that 
discrepancy. However, VA urges the Subcommittee to consider 
expanding the applicability of H.R. 3657 to include memorial 
headstones and markers under Section 2306(b) as well. This 
would ensure that VA can provide the same memorialization 
benefits in a tribal veteran's cemetery as are available in a 
state veteran's cemetery. Again, we would be happy to work with 
the Subcommittee to provide this language.
    Finally, H.R. 3705, the draft bill entitled Veterans Fair 
Debt Notice Act of 2017, would require VA, veterans, and others 
to use certified mail for correspondence regarding debts owed 
to VA or requests to waive such indebtedness. The bill would 
require that VA use plain language in all communications with 
the debtor and explain the options available to the debtor.
    While VA generally supports the use of plain language and 
providing clear explanations to the debtor, we do not support 
the requirement to use certified mail in communication between 
veterans and the Department. This change would increase the 
burden on veterans who may currently submit waiver requests via 
regular United States Mail, commercial carrier, facsimile, and 
electronic mail, as well as through the various VBA regional 
offices located throughout the Nation.
    Veterans would incur additional costs for submitting waiver 
requests and risk meeting associated deadlines.
    Additionally, using certified mail would increase costs to 
the Department, taking away funds from the very programs 
established to assist veterans.
    This concludes my testimony. Thank you for the opportunity 
to present our views on these bills and we look forward to 
working with the Subcommittee.

    [The prepared statement of Matthew T. Sullivan appears in 
the Appendix]

    Mr. Bost. Thank you, Mr. Sullivan.
    Ms. Curda, please begin your testimony on behalf of the 
GAO, if you would.

                STATEMENT OF ELIZABETH H. CURDA

    Ms. Curda. Chairman Bost, Ranking Member Esty, and Members 
of the Subcommittee, thank you for the opportunity to testify 
today on certain provisions of H.R. 3122, the Veterans Care and 
Financial Protection Act.
    This bill seeks to address the financial exploitation of 
veterans who are eligible for higher pension because they need 
regular assistance to perform everyday living activities. 
Individuals receiving the enhanced benefit for aid and 
attendance could be vulnerable to dishonest, predatory, or 
otherwise unlawful practices, which the proposed legislation 
aims to address.
    Today, I will first discuss our prior work related to 
potential threats to VA pension applicants and will then 
provide observations on certain provisions of the Veterans Care 
and Financial Protection Act.
    In our prior work, we have identified potential threats to 
the financial security of veterans who applied for pension 
benefits. For instance, in 2012 we identified entities such as 
financial planners that marketed its services to veterans 
seeking to qualify for pension benefits by offering veterans 
products and services that could adversely affect them.
    In 2013, we also reported on shortcomings in VA's process 
for ensuring that representatives approved to assist veterans 
with the claims process were adequately knowledgeable and have 
good moral character, as required by law.
    GAO made recommendations to VA to address these and other 
shortcomings, and VA has taken steps to implement our 
recommendations. For example, VA will increase training 
requirements for representatives approved to assist veterans 
with their pension benefit claims.
    However, additional opportunities exist to examine thee 
issues. For example, our prior work on issues relating to 
gaining access to VA pension benefits for veterans is now 4 to 
5 years old and could be updated. In addition, we have not 
examined the potential vulnerabilities of veterans who are 
already receiving aid and attendance benefits.
    Now I would like to discuss three provisions of the 
Veterans Care and Financial Protection Act of 2017. The first 
provision is the proposed requirement for VA to develop and 
submit standards to the Senate and House Committees on 
Veterans' Affairs within 180 days of enactment.
    Protecting veterans from financial exploitation is vital 
and developing a set of standards could help VA combat such 
practices. However, this proposed legislation does not clearly 
specify whether the standards to protect veterans are intended 
to be legally binding. Providing this clarification is 
important for determining what steps VA would need to take to 
develop the standards and whether completing these steps within 
180 days is feasible.
    Establishing legally binding regulations requires following 
procedures such as requiring agencies to publish a notice of 
proposed rulemaking in the Federal Register, soliciting and 
reviewing comments, and other time-consuming steps. In 
contrast, if Congress does not intend the standards to be 
legally binding, agencies may issue guidance to help interpret 
regulations or share good practices.
    The second provision is the proposed requirement to have 
GAO report on standards that we determine would be effective in 
protecting veterans should VA not meet the 180-day deadline. We 
follow Generally Accepted Government Auditing standards, which 
require us to maintain independence and identify and mitigate 
threats to our independence for our audits. For example, one 
such threat to independence that our standards identify is the 
self-review threat which results from auditors reviewing a 
service or work that they previously provided to an agency.
    In this case, if GAO were to set standards for this program 
and VA were to adopt them, it would be inappropriate for GAO to 
then audit implementation of standards that GAO had 
recommended. In addition, it would be inappropriate for GAO to 
set standards for VA, because setting standards for an 
executive branch program is an executive branch function.
    Thus, we recommend removing the proposed provision 
requiring GAO to submit a report containing standards.
    Finally, I would like to point out that the proposed 
requirement for GAO to complete a study on the standards 
implemented under the proposed legislation is by itself, and if 
GAO does not set the standards, an appropriate role for GAO.
    In conclusion, enhanced pension benefits provide a critical 
support to veterans with disabilities, many of whom are elderly 
and have limited financial resources to care for themselves. 
Individuals who seek to exploit these veterans can cause real 
financial harm. Our continued ability to conduct audits in this 
area by maintaining our independence and mitigating threats to 
that independence would help Congress, VA, and the public 
oversee this important program.
    This concludes my prepared statement and I am happy to 
answer the Committee's questions.

    [The prepared statement of Elizabeth H. Curda appears in 
the Appendix]

    Mr. Bost. Thank you. And we are going to go to questions in 
a moment, but first off we do want to--I would like first off 
to ask unanimous consent of the Committee that Mr. Cartwright 
is allowed to give his testimony from the dais. With no one 
objecting.
    Next, I want Mr. Cartwright of Pennsylvania to talk about 
H.R. 3122.
    Mr. Cartwright, you can begin at any moment.
    Mr. Cartwright. Thank you, Mr. Chairman.
    Mr. Bost. You have 5 minutes.

         OPENING STATEMENT OF HONORABLE MATT CARTWRIGHT

    Mr. Cartwright. And Ranking Member Esty. It is nice to be 
here today.
    I would like to thank you for holding this hearing and 
giving me an opportunity to speak about an important issue 
affecting our veterans that it ought to concern all of us here 
in Congress.
    As Americans, we can all agree, we have made a moral 
covenant with the men and women that served in our Armed Forces 
and, if you risk your safety for the sake of protecting the 
ideals this great country was founded upon, we will take care 
of you, and the gravity of that covenant cannot be understated; 
it is a core responsibility that we owe our veterans.
    As part of this enduring commitment to those who have 
served this Nation, the VA provides what is called an Aid and 
Attendance benefit to the growing number of low-income veterans 
who are in need of our support. This benefit helps pay for 
assisted living and in-home personal care for veterans who 
qualify for a VA pension and are housebound, or require the aid 
and attendance of another person.
    Unfortunately and regrettably, a number of unscrupulous 
actors are increasingly exploiting this assistance program by 
preying on our older veterans' vulnerability. By abusing the VA 
bureaucracy, these criminals are wasting Federal dollars and 
turning this well-deserved benefit into a financial nightmare 
for those who can least afford it.
    A recurrent scam involves charging veterans a nonexistent 
application fee to obtain the benefit. Consultation fees and 
fake promises to expedite the application process for a cost 
are also common.
    Yet another scam involves an offer to, quote-unquote, 
``help veterans qualify for the benefit,'' even when their net 
worth is too high to qualify. These so-called helpful 
individuals then take control of the veteran's assets and move 
them into an irrevocable trust or an annuity, which the elderly 
veteran often cannot access for many years. This kind of 
financial transfer can also delay or disqualify the veteran for 
other assistance like Medicaid.
    Some retirement homes recruit residents with promises that 
the veterans will receive this A&A benefit, which would cover 
the cost of the home. If the A&A claim is later denied, 
however, the nursing home then demands back payment from the 
veteran. This is a practice that leaves vulnerable, elderly 
veterans with the undesirable choice of draining their own 
remaining assets or giving up their new home.
    The Veterans Care Financial Protection Act seeks to address 
this travesty by directing Federal agencies to work with the 
states and outside experts to establish standards that will put 
an end to this kind of financial fraud. Specifically, the bill 
aims to develop and implement state and Federal standards that 
protect veterans from dishonest, predatory, or otherwise 
unlawful practices relating to the A&A benefit.
    It would also direct the GAO to study the implementation 
and effectiveness of those standards 18 months after their 
creation by using the 2006 Military Personnel Financial 
Services Protection Act as a model. This bipartisan commonsense 
proposal would prevent waste and protect veterans without 
spending new money or imposing any mandates. Now, we owe this 
to our veterans and this makes sense.
    In speaking with the Government Accountability Office, the 
GAO, prior to this hearing, I do understand that there may be 
further changes necessary to the text of the bill before it 
reaches its final version. However, my staff and I remain 
committed to working with the GAO. We will make ourselves 
available to it and the Committee to ensure the success of this 
important piece of legislation and look forward to further 
discussions. As such, I thank them for their attention to this 
critical issue.
    I would also like to thank Senator Warren for her hard work 
on this bill in the Senate.
    And, lastly, thank you again, Mr. Chairman, for holding 
this hearing and giving me the opportunity to speak about this, 
the Veterans Care Financial Protection Act.
    I yield back.
    Mr. Bost. Thank you, Mr. Cartwright, and thank you for 
being here.
    We have explained to the other Members, we forgo any 
questions of our colleagues at this time. If we have any 
questions, we will submit them for the record and then, if they 
are directed to you, we would like for you to get back to us as 
quick as you can with those.
    Thank you.
    Now we want to go back to the panel with questions we do 
have and I will now yield myself 5 minutes to start the 
questions off.
    Ms. Rawls, is the VA able to effectively develop and 
implement Federal and state standards to protect veterans and 
their survivors who receive Aid and Attendance benefits?
    Ms. Rawls. Thank you for that question, Chairman.
    I will tell you that the VA does have some concerns in 
being able to put into place standards that we can thus enforce 
for those entities out there that are currently preying upon 
veterans.
    We also know that by working with others that are in the 
community, as well as the state and Federal agencies that this 
problem is also out there for others that are outside the 
veteran population.
    Mr. Bost. Ms. Curda, the next question I have for you is 
you stated that there are other ways that GAO would provide 
support for fraud prevention at the VA other than submission of 
a report to Congress. Can you kind of elaborate on where you 
think that we should go with that?
    Ms. Curda. Certainly. We could do work in a number of 
areas, either at your request or mandated in the legislation, 
that could shed light on these issues and help to identify 
solutions, and help VA in its role in setting the standards.
    The issues we could look at, as I alluded to in my 
statement, the work we did in this area on claiming benefits is 
becoming old and we could take a fresh look at the kinds of 
issues that claimants are experiencing with financial 
exploitation, we could take a fresh look at VA's process for 
vetting and training representatives who are approved to assist 
veterans, and we could certainly take a look at industry 
practices in terms of marketing financial services to veterans.
    We could also do sort of a survey or a look at the 
standards that exist out there generally to prevent the 
financial exploitation of the elderly that exist in Federal and 
state agencies, and provide a report that would describe the 
different relevant types of standards that could inform VA's 
efforts.
    These are just a few examples, but we are happy to work 
with the Committee on technical amendments to the bill that 
could address those concerns.
    Mr. Bost. Thank you.
    I have to believe that everybody at the table, along with 
everybody here, believes we should cure the problem, the 
question is, is which agency handles it and how do we handle it 
most effectively? It is a real problem that is occurring.
    Mr. Sullivan, the VA recommends that Congress amend H.R. 
3657 regarding expanding eligibility for markers and headstones 
within the tribal cemeteries. Can you kind of explain why it is 
and how it was they were left out and where you want to go with 
that? Where do you think we should go with that?
    Mr. Sullivan. Thank you for the question, Mr. Chairman.
    Back in 1980, we received the authority to provide burial 
headstones and markers for spouses and dependents in state 
veteran's cemeteries, we only received the authority to 
actually provide grants for establishment of tribal veteran's 
cemeteries in 2006. So the legislation really has not caught up 
to provide this benefit for spouses and dependents in tribal 
veteran's cemeteries.
    Mr. Bost. Thank you.
    Ms. Lowe, could you please explain why the VA doesn't use 
certified mail to ensure veterans receive notice of an alleged 
overpayment?
    Ms. Lowe. Thank you for that question.
    We do not use certified mail because the legislation 
requires that we use basically first class postage. If we use 
certified mail, a veteran, if they were not home when we 
attempted to deliver certified mail, would have to take 
possibly time off from work to go to the post office to sign 
for the document or they may ignore the notice completely, and 
then the document would be returned--the letter would be 
returned to us anyhow.
    Mr. Bost. Okay. Then to follow up on that, if the veteran 
does not respond to a notice that is sent normal mail, how does 
the VA inform the veteran of the alleged overpayment?
    Ms. Lowe. We went (sic) out at the Debt Management Center 
2.5 million documents to veterans last year and of those 
approximately 10 percent or 250,000 were returned to us for 
incorrect addresses. We use the address correction provided by 
the U.S. Postal Service for about 130,000 of those and the 
other 120,000 we work with a company called LexisNexis to 
obtain updated mailing addresses.
    If we are unsuccessful in that venue, when the debt is 
transferred according to debt collection laws to the U.S. 
Treasury, they have access to IRS records and Social Security 
records and they can find additional addresses that way.
    Mr. Bost. Thank you.
    My time has expired. Ms. Esty, you are recognized for 5 
minutes.
    Ms. Esty. Thank you, Mr. Chairman.
    I want to thank all of you for joining us here today and 
share several of the Chairman's questions, but I would like to 
follow up with you, Ms. Lowe, further on this issue about the 
debt collection, because I have experienced this with veterans 
in my district and I think we have to do better. You know, it 
is manifestly unfair for people who don't get these.
    So one of the questions is veterans, and I have encountered 
this with veterans, have updated their address say with VBA and 
it doesn't get reported back over. So in fact, part of the 
system is aware of the updated address and another part is not.
    Can you discuss what do you think could be done to better 
connect those two? again, I think we can all agree, veterans 
want to do right by this, but if they have received an 
overpayment and they do not know about it because it is an old 
address, it leaves a really, really difficult situation for 
them and then our offices end up getting involved and that is 
not good for anybody.
    Ms. Lowe. Making it easier for veterans to update their 
addresses would be one way. The other thing is moving into more 
of a digital era where veterans have the option to opt-in. We 
service multiple generations, some of which only depend on the 
U.S. Postal Service and some of which only depend on electronic 
mail. For example, my son, I have to call him and ask him to go 
check his mailbox if I have sent him something.
    So we need to give veterans the option to be able to opt in 
to electronic mail and that way we could send notices to them 
in that manner.
    We would also need your help to change the legislation to 
allow the delivery of electronic mail, because right now the 
legislation requires it to be sent by the U.S. Post Office.
    Ms. Esty. Well, I think we would be very interested in 
exploring ways to effectively get notice. We have an expression 
in my office, effective service, a process. You have not done 
your job to send a letter out. We need to know the veteran 
received it and that they understand it. I am glad to hear the 
commitment from all of you about making sure that we have plain 
language, I think that is incredibly important, and that needs 
to be an initiative across the entire agency, because we owe it 
to them to be able to open a letter and understand it. They 
should not have to call their VSO and they certainly should not 
have to call one of us to understand what they just received in 
the mail.
    We would be very happy to work with you on electronic as an 
option. But I do think, speaking for myself, I think we need to 
know--I think first class mail is an insufficient notice for 
something like recouping a debt and I think we need to, in 
addition to providing electronic opt-in, I believe it is 
appropriate.
    Now, in the testimony there is an indication that that 
cannot be done somehow, because there is a queue and the queue 
has a whole lot of letters going out and they would have to be 
sorted, you know, some would qualify for this certified process 
and some would be inappropriate. Is there some reason that they 
could not be run as two separate lists? I mean, there are Excel 
spreadsheets, you code them, and you run the set that need to 
be done by certified and they run in a different way. Is there 
any reason we cannot do that?
    Ms. Lowe. I don't have that information, but we will be 
sure and take that for the record.
    Ms. Esty. All right, thank you. I appreciate that.
    Let me look through my list of other things we have not--
oh, actually for the VA. A little bit about, you said it is 
outside the core mission for talking about for the designation 
of, for example, World War II city. Do you think there is 
another agency other than the VA that would be appropriate to 
oversee that, would that be the Smithsonian or something, to 
talk about home-side, you know, home front support for the war? 
We are very supportive of those efforts, understand that the 
Secretary and the agency may have others. Do you have 
suggestions about an appropriate alternative agency to 
accomplish the same purpose?
    Mr. Sullivan. Ranking Member Esty, thank you for the 
question. I don't have a specific organization in mind right 
now, but I do believe that there is a Federal agency that would 
be more aligned, their mission be more aligned to evaluating 
the civilian population's home front efforts during wartime, 
evaluating how well that city has preserved the history of that 
city's efforts during wartime, I just don't think it is the 
best suited for VA to do that.
    Ms. Esty. Thank you very much.
    I know I have some questions, which will probably be in the 
part for the VSOs, on the National Veterans Museum about 
whether there have been others in the past that have been 
started independently by nonprofits. One of the questions that 
we may need help with is, understanding what kind of endowment 
is typically necessary when the Smithsonian usually gets 
involved for curation issues, so that we ensure that something 
that receives a designation as National indeed reflects the 
entire country, and that we are stewards of the taxpayer 
dollars. We may be following up with some further questions for 
you on follow-up to those.
    Thank you very much.
    Mr. Bost. Thank you, Ms. Esty.
    And also know that, the panel, we may have staff reach out 
with further questions and ask you to give those back in 
writing, so that we can kind of work forward with these issues. 
But thank you for being here.
    This panel is excused and if the third panel will move 
forward, that would be wonderful.
    [Pause.]
    Mr. Bost. Okay. Joining us on our third panel is Mr. Alex 
Zhang, Assistant Director of the National Veterans Affairs and 
Rehabilitation Division of The American Legion; Mr. LeRoy 
Acosta, the Assistant National Legislative Director of Disabled 
American Veterans; Mr. Blake C. Ortner, who is the Deputy 
Government Relations Director for the Paralyzed Veterans of 
America; Ms. Kathleen Moakler, the Director of Survivor 
Advocacy for TAPS; and Mr. John Towles, who is Deputy Director 
of the National Legislative Services for the Veterans of 
Foreign Wars.
    Thank you all for being here and for the work you do with 
your organizations. And that you do it every day, and we know 
that and we appreciate it, that you work to improve the lives 
of our veterans, and we thank you for that.
    Mr. Zhang, we will begin with you, and you are recognized 
for 5 minutes.

                    STATEMENT OF ALEX ZHANG

    Mr. Zhang. Chairman Bost, Ranking Member Esty, 
distinguished Members of the Subcommittee on Disability 
Assistance and Memorial Affairs, on behalf of the National 
Commander Denise Rohan and the members of The American Legion, 
the country's largest patriotic wartime service organization 
for veterans, comprised of over 2 million members and serving 
every man and woman who has worn the uniform for this country, 
we thank you for this opportunity to testify on behalf of The 
American Legion's position on the following.
    I am Alex Zhang, Assistant Director of Veterans Affairs and 
Rehabilitation Division. It is my duty and honor to present The 
American Legion's position on these important issues.
    H.R. 3122, the Veterans Care Financial Protection Act of 
2017, is a step in a positive direction for veterans, as it 
helps create protections to prevent or minimize financial scams 
directed at veterans who are surviving on a minimal salary. 
This bill also creates a national standard directed by the GAO 
to other Federal agencies to follow the guidelines set in this 
law.
    Too many times veterans are preyed upon by less-than-
scrupulous organizations looking for a quick buck. These 
veterans are often in nursing homes or living paycheck-to-
paycheck. We owe it to these men and women who protected this 
country by defending them from organizations that thrive on 
scams targeting veterans.
    The American Legion fully supports this legislation and any 
legislation that aims to stop scams targeting veterans. We 
applaud Congressman Cartwright for spearheading this 
initiative.
    The draft bill, Veterans Fair Debt Notice Act of 2017, 
spells out the steps a VA debt collector should follow when 
attempting to collect a debt a veteran has incurred. This is a 
necessary precaution, as there are many veterans who are unable 
to fully gasp the magnitude of the correspondence sent to their 
home or in many instances never received a letter regarding 
collection of debt.
    The American Legion recently assisted a homeless veteran 
who incurred a large debt after the VA removed her dependents 
from her benefits retroactively to 2005. Due to her 
homelessness, she was unable to receive VA's letter advising 
her of the debt. Because she was unaware of her options such as 
a repayment plan, the VA began recovery of the debt by 
garnishing all of her VA compensation. This went on for about a 
year before we were able to intervene and assist.
    Mr. Chairman, it is stories like this that show the 
importance of this draft bill. We cannot treat debt collection 
by looking at veterans as ones and zeroes on a line item. If a 
veteran owes the VA money, they should repay, but they should 
be treated with dignity and properly informed of their rights 
before collection starts.
    Many of these issues can be avoided if VA remembers that 
veterans are humans with real-life issues; they are not the 
enemy, nor should they be treated as such.
    The American Legion supports this draft bill as written.
    Shifting focus, I would like to quickly address H.R. 1900, 
which would authorize the name National Veterans Memorial and 
Museum.
    Similar to The American Legion, they also have pillars, 
being honor, connect, inspire, and educate. These pillars, in 
the opinion of The American Legion, represent the American 
veteran with profound respect by honoring them, connecting them 
to the civilian population, possibly inspire others to serve, 
and, most importantly, educate the youth about what these fine 
men and women have done for America.
    When asked, why Ohio, they simply respond, ``Because we did 
it.'' Truth be told, they raised $75 million and are currently 
in the construction process of what looks to be a beautiful and 
thoughtful memorial.
    The American Legion full-heartedly supports H.R. 1900.
    And again, Chairman Bost, Ranking Member Esty, and 
distinguished Members of the Committee, on behalf of the 
National Commander Denise H. Rohan and The American Legion, we 
truly appreciate this opportunity to speak with you this 
morning, and I will be happy to answer any questions you may 
have.
    Thank you.

    [The prepared statement of Alex Zhang appears in the 
Appendix]

    Mr. Bost. Thank you, Mr. Zhang.
    Mr. Acosta, you are recognized for five minutes.

                   STATEMENT OF LEROY ACOSTA

    Mr. Acosta. Mr. Chairman, Members of the Subcommittee, 
thank you for inviting the Disabled American Veterans to 
testify at this legislative hearing of the Subcommittee on 
Disability Assistance and Memorial Affairs.
    As you know, DAV is a nonprofit veteran's service 
organization comprised of 1.3 million wartime service-disabled 
veterans dedicated to a single purpose: empowering veterans to 
lead high-quality lives with respect and dignity. DAV is 
pleased to present our views on the bills under consideration 
by the Subcommittee.
    We support with recommendations H.R. 3705, the Veterans 
Fair Debt Notice Act of 2017. This is consistent with the 
intent of DAV Resolution No. 213, which calls for alleviating 
undue financial hardship in processing overpayments and 
notifying veterans of debt. This draft bill, or H.R. 3705, 
proposes using certified mail to ensure VA notification letters 
concerning debt collection actions are received by debtors and 
that plain language is used to explain the debt.
    Under current law, the date of notification is defined as 
the date of the VA letter notifying the claimant; however, this 
legislation mandates the use of certified mail, which requires 
the debtor to sign for the notification letter. This date of 
notification is key to launch the 30-day time period for the 
debtor to respond to the Secretary with a written dispute of 
the debt, a written request for waiver, and/or a written 
request for a hearing on the waiver. Accordingly, in our 
opinion, the date-signed receipt of certified mail by the 
debtor should be considered the date of notification and 
requires amendment in the regulation.
    In addition, this legislation should clarify if it actually 
intends for certified mail to be used by the debtor to respond 
to the Secretary. We believe this would place an undue burden 
and potential hardship upon a debtor, and we would oppose that 
specific requirement.
    We applaud the provision in the bill requiring a plain-
language explanation of why the debtor owes money. The 
overpayment and debt process can be confusing, complex, and 
overwhelming to many veterans who are often left guessing why 
the debt was created. We agree that a simple and plain 
explanation should be required in all debt notifications.
    As for H.R. 3122, the Veterans Care Financial Protection 
Act of 2017, DAV does not have a resolution specific to this 
issue, but we unfortunately continue to hear stories about 
various schemes to take advantage of elderly and disabled 
veterans who receive VA benefits. This measure seeks to address 
this issue and is beneficial. Therefore, we are not opposed to 
passage of this legislation.
    Concerning H.R. 1900, the National Veterans Memorial and 
Museum Act, which would designate the Veterans Museum in 
Columbus, Ohio as the National Veterans Memorial and Museum. 
DAV does not have a resolution from our members concerning this 
issue and we have no position.
    Finally, DAV does not have a resolution specific to H.R. 
1721, H.R. 3656, and H.R. 3657, and we are not opposed to their 
passage.
    Mr. Chairman, that concludes my testimony and I would be 
happy to respond to any questions that you or Members of the 
Subcommittee may have.
    Thank you.

    [The prepared statement of Leroy Acosta appears in the 
Appendix]

    Mr. Bost. Thank you, Mr. Acosta.
    And now we would like to recognize General Ortner for five 
minutes.

                   STATEMENT OF BLAKE ORTNER

    Mr. Ortner. Mr. Chairman, Ranking Member Esty, Paralyzed 
Veterans of America would like to thank you for the opportunity 
to provide our views on pending legislation before the 
Subcommittee.
    For H.R. 1721, the designation of American World War II 
cities, would recognize specific cities not just for their 
great contributions on the home front during World War II, but 
also their efforts to preserve the city's structures and relics 
from that era. PVA supports this bill, which encourages cities 
to preserve this great heritage.
    For H.R. 1900, the National Veterans Memorial and Museum 
Act, PVA supports designating the Veterans Memorial and Museum 
in Columbus, Ohio currently being constructed as the National 
Veterans Memorial and Museum. It is the only museum of its kind 
and it is intended to reach veterans of all eras, from every 
part of the United States and from all branches of services. 
Given the scope of the project and its intended audience, a 
national designation is appropriate.
    PVA also supports H.R. 3122, the Veterans Care Financial 
Protection Act of 2017. This proposal would require the 
Secretary to work with Federal and state officials to establish 
standards to protect against unscrupulous actors that take 
advantage of veterans in need of Aid and Attendance benefits.
    According to organizations such as AARP and the Federal 
Trade Commission, senior veterans have increasingly become 
subject to scams involving insurance agents and financial 
planners trying to convince the veterans to make quick 
decisions about pursuing Aid and Attendance in addition to 
their pension incomes. Some scammers use false representations 
like suggesting automatic entitlements to benefits. Of greater 
concern, though, are those who help the veteran restructure 
financial assets in order to qualify for pension and/or Aid and 
Attendance.
    For example, moving financial assets into a pooled-asset 
irrevocable trust might render a veteran eligible for pension 
and Aid and Attendance despite having assets in excess of the 
qualifying income thresholds. While it appears this benefits 
the veteran, what these salesmen do not tell them is that this 
type of restructuring might preclude them from Medicaid 
eligibility because of rules such as the 5-year look-back 
period, which considers whether one has moved substantial 
assets at less-than-market value.
    These financial products are specifically managed by 
alleged veterans' advocates who are offering to help veteran's 
secure enhanced benefits from VA. This is an objective conflict 
of interest and implementing standards to protect against this 
behavior is necessary.
    PVA supports H.R. 3656, which would establish a consistent 
eligibility date for provision of memorial headstones and 
markers for eligible non-veteran individuals. Currently, 
spouses and children have different eligibility dates, 
sometimes forcing VA to provide a marker for the parent, but 
not the children. This bill would reconcile this arbitrary 
difference and treat spouses and children the same. Likewise, 
PVA supports H.R. 3657 to authorize provision of headstones and 
markers in tribal cemeteries. Consistent with our prior support 
for H.R. 1390, which would expand VA's authority to transport 
the remains of a deceased veteran to a tribal cemetery or state 
cemetery instead of a national cemetery, we likewise support 
this bill, which ensures that the accompanying benefits such as 
a headstone or marker are provided to veterans buried in tribal 
cemeteries.
    Finally, the draft bill Veterans Fair Debt Notice Act of 
2017, PVA supports this legislation. Failure to resolve debt 
issues in a timely manner can have a lasting, catastrophic 
impact on a veteran. It is not uncommon for a veteran to find 
that the Veterans Health Administration has updated contact 
information while the Veterans Benefits Administration has not, 
or vice versa. So as VBA sends out a notice of overpayment of 
benefits or some other circumstances producing a debt owed by 
the veteran, it is essential that VBA know whether that notice 
actually reached the veteran prior to the veteran going into 
default. It is important to ensure that veterans are not going 
into default for lack of notice, especially in circumstances 
where the debt itself is a product of VA's mistakes in 
overpayments.
    Mr. Chairman, Ms. Esty, we appreciate your commitment to 
ensuring that veterans receive the best benefits and care 
available. We look forward to working with the Subcommittee and 
would be happy to answer any questions you or the Members may 
have.
    Thank you.

    [The prepared statement of Blake Ortner appears in the 
Appendix]

    Mr. Bost. Thank you, General.
    Ms. Moakler, you may begin testimony for TAPS at this time.

                 STATEMENT OF KATHLEEN MOAKLER

    Ms. Moakler. Thank you very much, Chairman Bost, Ranking 
Member Esty and distinguished Members of the Subcommittee.
    The Tragedy Assistance Program for survivors, TAPS, thanks 
you for the opportunity to make you aware of issues and 
concerns of importance to the families we serve, the families 
of the fallen. While the mission of TAPS is to offer comfort 
and support for surviving families, we are also committed to 
improving support provided by the Federal Government, state 
governments and local communities for the families of the 
fallen. Those who fall in combat, those who fall from invisible 
wounds and those who die from illness or disease.
    We thank the Veterans Affairs Committee for the recent 
improvements to survivor education benefits and the Harry W. 
Colmery Veterans Educational Assistance Act of 2017 and other 
recent legislation. We will be working closely with the VA on 
the law's implementation. TAPS is pleased to work with the VA 
within the framework of a Memorandum of Agreement signed by VA 
Secretary Shulkin and TAPS President and Founder Bonnie Carroll 
in April of this year. The services provided by TAPS and VA are 
complimentary. And in this public/private partnership each will 
continue to provide extraordinary services through closer 
collaboration.
    Imagine you are a surviving spouse or dependent who opens a 
letter from the VA that notifies you that you suddenly owe the 
VA several thousand dollars and they would like the payment in 
a lump sum as soon as possible. The only explanation is that 
there has been a change in benefits and you have been overpaid. 
While they provide an 800 number for you to call, every time 
you call the number it is busy. Before you know it a third 
letter has been sent, still without a definitive explanation of 
what the cause of the debt is and containing an ominous warning 
that you are subject to having your wages garnished, VA 
benefits withheld and that your debt has been sent to a 
collection agency. This has really happened in one of the 
stories that we outlined in our written testimony.
    It can often be confusing for survivors tracking which 
payment comes from which agency. Many are often still in a fog 
of grief and mail can lie unopened. Letters can be daunting as 
one sifts through legal ease and unfamiliar terms. It can be 
even more confusing in dealing with education benefits when 
funds are also impacted by the institutions of higher learning, 
their particular rules and very often sharing of 
misinformation.
    Indicative of the specialized support that TAPS provides is 
our educations services portal and individualized support on 
the education benefits available for the children and spouses 
of America's fallen heroes. Through it is MOA with the VA TAPS 
has been able to often troubleshoot problems for families that 
reach out to us. We have helped several families resolve their 
issues with debt collection.
    TAPS was fortunate to receive a briefing from the VA Debt 
Management Center at the July 2017 meeting of the DoD VA 
Survivors Forum. The briefing clearly outlined the processes 
and procedures that the DMC uses to notify beneficiaries and to 
collect the debt owed. The procedures as outlined in the DMC 
brief appear to be designed to make the process easier for the 
customer, the survivor or veteran. The stumbling block, as we 
have heard from many today, is making it easier to connect the 
survivor or veteran with the assistance that DMC provides. We 
support the various means of contacting survivors and veterans 
that the VA had proposed earlier today.
    Clarification of the reason for the debt and easy to 
understanding language, as called for in the proposed 
legislation would go a long way in improving communication and 
access. Reinforcing the importance and urgency of the debt 
letter received from the VA by sending it certified mail will 
also help to ensure that the beneficiary responds in a timely 
manner. We are grateful that H.R. 3705 addresses these two 
important steps in the process.
    TAPS supports H.R. 3657 and H.R. 3656. We also support H.R. 
3122, which calls for additional financial protections for 
those survivors in receipt of aid and attendance. They are 
among our most vulnerable populations for fraud and financial 
abuse. TAPS thanks the Subcommittee for being at the forefront 
in protecting survivors and for crafting benefits that 
recognize their sacrifice. Thank you for allowing us to speak 
on behalf of the survivors we serve. I look forward to any 
questions.

    [The prepared statement of Kathleen Moakler appears in the 
Appendix]

    Mr. Bost. And last, but definitely not least, Mr. Towles 
you are recognized for 5 minutes to present the testimony of 
the VFW.

                    STATEMENT OF JOHN TOWLES

    Mr. Towles. Thank you, Chairman Bost, Ranking Member Esty, 
Members of the Subcommittee. On behalf of the men and women of 
the Veterans of Foreign Wars of the United States and it's 
auxiliary, thank you for the opportunity to provide our remarks 
on the following legislation pending before the Subcommittee.
    With regards to H.R. 1721, the VFW supports this 
legislation which would direct the Secretary of Veterans 
Affairs to designate at least one city in the United States 
each year as an American World War II city, which would be 
based on the city's contribution to the war effort and the 
continued efforts to preserve the history of such 
contributions.
    Throughout the past few years multiple attempts have been 
made to pass similar legislation that would give the Secretary 
this authority, and while most of these attempts have passed 
the House all have failed in the Senate. In general, the VFW 
supports legislation that seeks to recognize veterans and 
preserves the military history of our greatest generation.
    With regards to H.R. 1900, the VFW supports this 
legislation which would designate the Veterans Memorial and 
Museum, which is currently being constructed in Columbus, Ohio, 
as a National Veterans Memorial and Museum. Continuing the 
legacy left by the late Senator John Glenn, the museum would 
serve as a civic landmark to honor, connect, inspire and 
educate visitors about the sacrifice and service of all of our 
Nation's servicemen and women. The creation of this institution 
would have a profound lasting impact on every American and 
would help instill a deeper meaning in the freedoms we all 
enjoy.
    While there are several museums and monuments dedicated to 
specific branches eras, our country currently lacks a museum 
specifically dedicated to honoring and preserving the 
collective sacrifices made by all of the Nation's veterans. We 
feel as though this museum would serve to fill this gap, and 
this institution would serve as a constant reminder to all the 
importance and value of military service by honoring the 
contributions of our veterans, educating the public about what 
it means to serve and ensuring that our veterans, regardless of 
the location, branch, or era have a nationally designated 
facility to call their own.
    In regards to H.R. 3122, the Veterans Care Financial 
Protection Act, the VFW strongly supports this legislation 
which would address and correct many of the oversight and 
accountability problems which have plagued the Aid and 
Attendance program for quite some time by the directing the 
Department of Veterans Affairs to work with other Federal 
agencies to develop standards that would protect veterans 
receiving A&A benefits from dishonest and predatory business 
practices. As the number of elderly veterans increases so too 
does the need to provide them with additional assistance that 
enables them the ability to complete day-to-day activities. But 
these services can be extremely expensive. Many veterans depend 
on the A&A program because it enables them to obtain these 
services. However, because of poor oversight many veterans are 
being taken advantage of by individuals claiming to be 
consultants. And in some circumstances, even retirement homes.
    Sadly, predatory practices that target veterans, 
servicemembers and their families is nothing new. Last year 
alone the CFPB received over 11,000 complaints from veterans 
regarding VA loan financing companies that were engaging in 
aggressive solicitations and misleading advertisements, and an 
additional 2700 complaints concerning businesses engaged in 
consumer loans for veterans and servicemembers.
    Not only do these practices cost the Federal Government 
millions in taxpayer dollars, but often times result in the 
veteran being responsible for repaying any debt incurred, which 
makes an unstable financial situation even worse. It is 
unfortunate that legislation such as this even needs to exist. 
However, so long as the need is there the VFW will support any 
measure to protect the financial well-being of our Nation's 
veterans.
    With regards to H.R. 3656 and 3657 the VFW supports both 
pieces of legislation. H.R. 3656 would codify the date of 
edibility for VA provided headstones and markers for the spouse 
and any dependent children of a veteran whose remains are 
unavailable on or after November 11, 1998, and H.R. 3657 which 
would expand the headstone or marker eligibility for spouses 
and dependent children buried in tribal cemeteries.
    Finally with regards to the draft bill, the VFW strongly 
supports this legislation. During the O&I hearing yesterday Ms. 
Lori Rectanus testified that because the VA lacks key elements 
of an effective mail management program, the VA cannot provide 
assurance that facilities are managing their mail efficiently. 
Every year the VFW assists thousands of our members who have 
received overpayment notifications from the VA, many of which 
are erroneous. Almost every single letter is the same - it uses 
ambiguous language, gives no clear options to request recourse, 
and directs the veteran to contact the VA with any further 
questions. As you can imagine, this leaves many fearful of the 
process as a whole, given how unresponsive the VA has been in 
the past. To be blunt, our veterans deserve more.
    With that additional layer of complexity many times the 
contact information is incorrect, as my colleagues have also 
testified to. Ultimately, if the veteran fails to respond to 
the debt notice it can result in their pensions being garnished 
until the debt is satisfied, or the debt going to a collections 
agency. This is unsatisfactory. By requiring debt notifications 
to be made in easy-to-understand language via certified mail, 
veterans would be able to understand what they need to do in 
order to ensure the issue is addressed in a timely manner.
    With that, Mr. Chairman and Ranking Member Esty, this 
concludes my testimony. The Veterans of Foreign Wars sincerely 
appreciates the opportunity to provide views on important bills 
and is prepared to take any questions you or other Members of 
the Subcommittee may have.

    [The prepared statement of John Towles appears in the 
Appendix]

    Mr. Bost. Thank you, Mr. Towles. And I will start with 
yielding myself 5 minutes for questions. Mr. Acosta, can you 
explain why the VA believes that H.R. 3705, the Veterans Fair 
Debt Notice Act, needs more clarification? Can you expand on 
that on where your testimony was there?
    Mr. Acosta. The portion where it says for the debtor to 
respond to the VA, that is what I am talking about. And it is 
clear when you read it a couple of times it appears that it is 
requiring the debtor to respond by certified mail.Mr. Bost. 
Yeah, and I don't think it is the intent of the--we don't think 
it is the intent of the sponsor. But we will make sure that we 
talk with them specifically on that. Ms. Moakler, your written 
testimony supports expanding the eligibility for gravestone and 
markers to spouses and dependents who are buried in tribal 
cemeteries. Can you kind of elaborate on that a little bit?
    Ms. Moakler. Well, we believe that tribal cemetery, the 
folks who are eligible for tribal cemeteries are as deserving 
of headstones and markers as those who are buried in state 
cemeteries because I believe they have a similar standing.
    Mr. Bost. Mr. Towles, can you explain why the VFW supports 
H.R. 3656 regarding memorial headstones and markers?
    Mr. Towles. A lot of the issues revolve around people, as 
the sponsor mentioned, that go missing at sea or due to a 
boating or plane accident. In our opinion, it provides parity 
between the two areas, or the two populations reflected in the 
bill. It makes a situation right instead of having to rely on, 
you know, exceptions to policy.
    Mr. Bost. General Ortner, can you explain why PVA's 
concerns about the salesman who promise to restructure veterans 
finances assets in order to qualify for pensions or aid in 
attendance and kind of expand on where you believe--
    Mr. Ortner. Well, Mr. Chairman, thank you for that 
question, I think it is pretty obvious in the current country 
of the preying on older Americans. And unfortunately in the 
case where the process, VA processes are relatively complicated 
and the reason they hire VSOs to try and work them through the 
system can make them, I think, more susceptible to someone that 
comes in and says, oh, let me fix this for you. I think there 
really needs to be some aspect of legislation or regulation 
that puts a higher bar in there for anybody that is going to 
try and do something like that. Just like we need for other 
Americans in this country.
    Mr. Bost. Okay. My next question is for everybody here 
because I really want to--the concern I had with H.R. 3122. Did 
anybody on this panel would you disagree if all of a sudden we 
found a different agency that could possibly do it better in 
our government to make sure we provide these protections? 
Because we are kind of questioning whether or not the VA can do 
it or whether whose scope it is under. And you are really 
concerned and that is what I am wanting each of you to answer, 
you are really concerned about just making sure that the 
veteran is protected and not subject to the possibility that 
these fraud and some--we are trying to look for the right 
agency. Does it matter which agency does it?
    Mr. Zhang. I would have to say, Chairman, I would have to 
say that it is not germane. Because VA was created for the 
purpose of helping veterans so it should stay with VA.
    Mr. Acosta. Mr. Chairman, I would have to say if the intent 
is to help ill and injured veterans then it should stay with 
the VA.
    Mr. Ortner. I think the end result is what is key here. But 
obviously I think we could support going with another agency. 
However, I think what would probably be more critical is seeing 
exactly what that agency is, why that agency is going to be 
able to do it better than someone else. I think I am not big on 
passing the buck. I think that if it is the VA's job the VA 
should just learn to do the job right.
    Ms. Moakler. I don't have much experience with this issue 
as far as coordination of effort. But if we look at the 
exploitation of veterans education benefits, if we work with 
the organizations that have the expertise, be it the FTC, be it 
the Department of Justice, and people are in coordination then 
we will be able to get the best outcome for the veteran or 
survivor using these benefits.
    Mr. Towles. Mr. Chairman, from what we have seen at the 
VFW, there exists within the CFPB an office of Service Member 
Affairs, which deals a lot, I mean, they specifically handle 
complaints and issues coming from the veterans and the military 
community. With regards to how they might be able to add some 
expertise or some assistance to what is going on with the 
current A&A issue, I can't speak to that personally. But I 
would say that there is probably existing architecture within 
that agency to help augment and help sort of provide some 
additional oversight to these issues.
    Mr. Bost. Thank you. And my time has expired, so I am going 
to turn it over to Ms. Esty 5 minutes.
    Ms. Esty. Thank you very much, Mr. Chairman. And thank you 
so much for being with us here today. To just quickly follow up 
on this last point, which I too had some questions about. I 
think it is noteworthy that Senator Warren is the co-sponsor 
and lead sponsor in the Senate. So presumably was one who 
helped create that agency. She does not believe that that is 
sufficiently able to its job. So I think that is instructive 
for us to consider. But I do think it is worth, I have a 
question for all of you. Do you think it would be helpful for 
the VA to take a proactive role if somebody is beginning to 
receive ANA to send out a notice, and frankly I think we are 
very concerned about the asset issue, whether a notice should 
go to family members? Because we know this to be a chronic 
pattern of taking advantage of the elderly and this is yet 
another venue specifically targeted at veterans.
    Mr. Towles. Absolutely. I think that education is the best 
form of prevention.
    Ms. Moakler. I believe that that would be very worthwhile 
because in many cases the VA is already communicating with 
family members. Especially where a family member has fiduciary 
responsibility. But an overall campaign of this through maybe 
AARP or some other outside organizations, a feature on a 
morning TV show or something like that, would create a better 
awareness because you can't always identify who the family 
member is that is supporting the veteran or survivor.
    Mr. Ortner. Yeah. I would tend to agree that I think 
getting the message out, getting the education out is probably 
the most critical thing. Especially if you go through the 
families. But it probably needs more than just education. There 
needs to be some penalties and direct action against any 
unscrupulous people that would take advantage of a veteran like 
that.
    Mr. Acosta. We would certainly be willing to take a look at 
any legislation that would be proposed to enable veterans to 
obtain all the benefits available to them, especially ill and 
injured veterans.
    Mr. Zhang. We would have to look at--we concur with it, but 
here is the problem. It would have to be revolutionary in that 
you would have to train, retrain and readjust. Also there is a 
byproduct of that, not all veterans have a stable home 
situation. So you would have to look at homeless and how you 
deal with that. So that is the byproduct on that.
    Ms. Esty. Thank you very much. Wanting to turn now to the 
proposal to designate as national the museum that is underway 
right now in Ohio. I think we are all very supportive of having 
a memorial, a national memorial. I do have a question. It is 
currently being marketed as National. Is that concerning to any 
of you that is being marketed as a National Museum and Memorial 
which has not received that designation from this body? And as 
taxed as stewards of the taxpayer's expense I have some concern 
about that. I don't know if any of you have concerns. I have a 
couple questions. That is one. One is unlike the national 
museums that we have here in Washington, which are free to all 
who come, the proposal here is to charge everyone who attends. 
I think that something--did you look at that? Did you consider 
that in terms of your support? Because these are among the 
kinds of questions we have to consider. And others, those who 
have not come through Congress but have come later have 
typically been in operation for a number of years. And the 
question about endowments, these are some of the kinds of 
questions that we need to be considering. I am wondering your 
thoughts on any of these issues. You are on the front lines 
everyday with our veterans. We are tremendously supportive of 
this concept. But trying to do it in a way that makes the most 
sense and is keeping with Congress responsibility, but also 
that openness when something receives a national designation.
    Mr. Zhang. It is not a problem of the word National. 
Because where there are veterans we are systemic, we are all 
over. You build it, we will come.
    Mr. Ortner. We actually looked--
    Ms. Esty. Well, I guess the question is on charging which 
we don't say here. None of the museums charge. The Smithsonian 
doesn't charge. But this is--the plan is to charge anyone who 
attends.
    Mr. Zhang. I understand that. But I don't think it would be 
an issue for veterans and others that are interested. Because 
again, they raised 75 million on their own. So if they can do 
that, it may be down the road there may be some issues trying 
to get the fiduciaries together to support it, but if it 
becomes really national and the bill passes then I don't think 
it should be an issue.
    Mr. Ortner. Yeah, PVA we actually discussed that a little 
bit. We are not concerned about that primarily because the fact 
that it is national and the idea that they had created a large 
amount of funds to create the facility themselves. Its 
location, as was, you know, I discussed earlier the fact it is 
within, you know, short range of a lot of veterans we don't see 
that as an issue. I know another question came up, could this 
somehow lead, by calling it National, could that somehow lead 
to a requirement of Federal funding for the facility. The fact 
that the legislation does not identify or require anything like 
that, I don't think that needs to be a concern. I suppose later 
on if they wanted to come and make that argument I suppose that 
is a possibility that could be denied at that time. But we 
don't really have a problem with it.
    As for charging, the difference between Washington, DC and 
virtually every other museum in the country is significant. The 
Smithsonian highlights the fact that their museums are all 
free. But they are also pretty much fully funded by the Federal 
Government as well. So I don't think there is a problem with 
that.
    Mr. Towles. With regards to the funding; we were of the 
understanding that the intent once the museum opens, is to 
offer admission to veterans and survivors at no cost. The other 
funds would be generated through folks who aren't veterans or 
military. So that sort of takes care of that. Additionally, as 
the others have said, they have done a really good job at sort 
of funding their way so far. So we have no qualms or worries or 
concerns about that.
    Regarding the location, to be quite honest, we have 
received complaints from veterans that coming to DC for, you 
know, going to the wall to have a group photo taken, most 
notably the Honor Flight folks getting, I am not going to say 
harassed, that is a strong word, but you know, being stopped by 
the Park Service folks and saying ``Do you have a permit to be 
here? Do you have a license to take these photos?'' If they are 
going to start charging veterans to take photos at the wall, I 
mean, that is kind of--it is unfortunate. Right? So them going 
to Columbus to a museum that honors all veterans it may be, you 
know, that might be what we are seeing in the future because 
people may not want to come here because they feel as though 
they are being harassed or having to pay for something that 
they feel should be theirs.
    And I think ultimately, the fact that it is not built yet - 
I think that it has gotten enough grassroots support, it has 
enough of the key thinkers, a lot of the folks that were behind 
the World War I Commission are also giving their two cents on 
this. They are on the Board, and the Steering Committee right 
now. I think that it will be fine in the end.
    Ms. Esty. And if I may, Mr. Chairman, I think we would very 
much want to follow up with your comments about harassment or 
other questions being asked of people at the memorials. And, 
Mr. Chairman, if we could follow up with you. And that may need 
to be something we have a hearing on. Because that is 
completely inappropriate. It should not be happening and very 
distressing for us to hear that any of our veterans or family 
members are having that sort of experience. It is just not 
right and we will--
    Mr. Bost. And we should contact the Committee with Natural 
Resources too. Because that is where, you know, they would be 
the overseers and we would not want that to happen. If it is 
happening we want to make sure that it is stopped.
    Mr. Towles. Thank you.
    Mr. Bost. And if we have further questions we will--oh. Did 
you yield back? I am sorry.
    Ms. Esty. I yield back. I am way over time at this point, 
but thank you.
    Mr. Bost. Okay. If anyone has any further questions we will 
be contacting you, the staff will. Thank you everyone for 
joining us today and sharing your views in the Subcommittee. 
Your testimony provides us with important insight into these 
proposals as we move forward with this legislative process. And 
I ask unanimous consent that all Members have five legislative 
days to revise and extend their remarks and include extended 
material on any of the bills under consideration this 
afternoon. Without objection, so ordered. This hearing is now 
adjourned.

    [Whereupon, at 12:06 p.m., the Subcommittee was adjourned.]




                            A P P E N D I X

                              ----------                              

               Prepared Statement of Matthew T. Sullivan
    Good morning, Chairman Bost, Ranking Member Esty and Members of the 
Committee. I am pleased to be here today to provide the views of the 
Department of Veterans Affairs (VA) on pending legislation, including: 
H.R. 1721, H.R. 1900, H.R. 3122, H.R. 3656, H.R. 3657, and a bill 
entitled ``Veterans Fair Debt Notice Act of 2017.'' With me today is 
Ms. Roberta Lowe, Acting Director of the Debt Management Center (DMC), 
Office of Management, and Ms. Cheryl Rawls, Director Pension & 
Fiduciary Service, Veterans Benefits Administration (VBA).

                               H.R. 1721

    H.R. 1721 would direct the Secretary of Veterans Affairs, in 
consultation with the Secretary of Defense, to designate at least one 
city in the United States each year as an ``American World War II 
City.'' The designation would be based on the city's contribution to 
the war effort and its efforts to preserve the history of those 
contributions. The bill directs that Wilmington, North Carolina, be 
designated as the first ``American World War II City.''
    VA supports the concept espoused in H.R. 1721 of recognizing the 
concerted efforts of those on the home front that led ultimately to 
victory in World War II. Scores of communities and cities have rich 
histories of supporting the United States' efforts in innumerable ways. 
However, while VA agrees that ensuring recognition of these efforts is 
commendable, VA lacks the expertise, historical documentation, and 
infrastructure necessary to fully realize this plan for recognition of 
a civilian population. VA is committed to its mission of providing 
benefits to those who fought the battles in World War II as well as 
other conflicts, and their dependents. Redirecting critical VA 
resources to reviewing efforts of the civilian population designate 
locales as an ``American World War II City'' based on those efforts 
would be inconsistent with VA's mission.

                               H.R. 1900

    H.R. 1900, the ``National Veterans Memorial and Museum Act,'' would 
designate the Veterans Memorial and Museum in Columbus, Ohio, as the 
National Veterans Memorial and Museum. VA respectfully expresses no 
view on the proposed bill, which does not apply to VA or to VA's core 
mission.

                               H.R. 3122

    H.R. 3122, the ``Veterans Care Financial Protection Act of 2017,'' 
seeks to protect pension claimants from individuals and entities that 
market financial products or legal services for purposes of 
restructuring claimants' assets and thereby ``qualifying'' them for the 
benefit but which, at the same time, may render them ineligible for 
other Federal benefits or, practically speaking, make them unable to 
access their assets during their lifetime.
    Pension is a needs-based benefit that VA pays to wartime Veterans 
who meet the age or disability requirements and to their survivors. 
Under current law, VA must deny or discontinue pension if the 
claimant's net worth, including the claimant's annual income, is such 
that it is reasonable that the claimant consume some part of that net 
worth for his or her maintenance. VA calculates a claimant's pension 
entitlement by reducing the statutory maximum annual pension rate, 
dollar-for-dollar, by the amount of the claimant's countable income. 
Veterans and survivors who require the aid and attendance of another 
person are entitled to a higher maximum annual pension rate and, thus, 
may become eligible for pension despite otherwise disqualifying income 
or may be eligible for an increased amount of pension if they have no 
income. The purpose of pension is to provide some level of financial 
security for certain Veterans and survivors who have an immediate need. 
Congress did not intend that claimants could restructure their assets 
to create the need.
    Section 2(a)(1) of the bill would require VA to work with Federal 
agencies, States, and other appropriate experts, to develop and 
implement Federal and State standards for protecting pension claimants 
and beneficiaries from dishonest, predatory, or otherwise unlawful 
practices. Under section 2(a)(2), VA would have 180 days from the date 
of enactment to submit the standards to the Senate and House Committees 
on Veterans' Affairs. Under section 2(b), if VA does not comply with 
the 180-day deadline, the bill would require the Comptroller General of 
the United States to develop standards for protecting pension claimants 
and beneficiaries within one year of the date of enactment. Finally, 
section 2(c) would require the Comptroller General to complete and 
submit a study to the Committees on the implemented standards no later 
than 540 days after enactment.
    VA agrees with the intent of the bill (with technical amendments), 
which is to protect veteran pension claimants and beneficiaries. 
Accordingly, VA will work with relevant Federal agencies, States, and 
other experts to leverage the expertise necessary to further regulate 
the financial services or legal instruments industries and protect 
against unlawful practices. Historically, VA's sole purpose has been to 
provide benefits and services to eligible Veterans, dependents, and 
survivors.
    Relevant expertise or experience can be found in certain Federal 
and State regulatory agencies, such as the Department of Justice, 
Securities and Exchange Commission, Federal Trade Commission (FTC), 
Consumer Financial Protection Bureau (CFPB), State Attorney General 
Offices, and various other State agencies that are charged with 
protecting consumers or monitoring the activities of specific 
industries or professions.
    As noted above, other agencies already have authority to protect 
consumers or regulate the activities of financial planners, attorneys, 
and other individuals and entities that may have an interest is 
structuring assets to reduce an individual's net worth. These agencies 
may already have ample authority to address the problem that is the 
subject of the bill.
    VA welcomes the opportunity to work with key stakeholders and share 
information about common predatory practices involving VA benefits, 
particularly VA pension, to help identify and enforce existing 
standards and to develop additional standards where appropriate. VA has 
already consulted with the FTC and CFPB regarding the unscrupulous 
practices of individuals and entities that advise pension claimants 
that they can use the program as an estate planning tool, and has 
shared its outreach products with those agencies. It has also worked 
closely with Veterans Service Organizations to ensure that their 
employees and members are fully aware of the potential for predatory 
practices.
    It may be more effective for the bill to specifically identify the 
other entities charged to collaborate with VA in addressing this issue, 
to clarify that the onus does not lie solely with VA, but also with 
those other entities to establish a mechanism to enforce existing laws. 
It may also be more effective if the bill emphasized that the predatory 
practices go beyond claims for increased pension, by also impacting 
elderly claimants' eligibility for other Federal benefits and their 
ability to access their assets during their lifetime.
    VA estimates that enactment of this bill would result in general 
operating expenses of $448,000 for fiscal year (FY) 2019, $918,000 over 
the 5-year period from FY 2019 through FY 2023, and $8.7 million over 
the 10-year period from FY 2019 through FY 2027.

                               H.R. 3656

    H.R. 3656 would amend 38 U.S.C. <l-arrow> 2306(b) to establish a 
consistent applicability date for the provision of memorial headstones 
and markers for all eligible non-Veteran individuals. The bill would 
not expand eligibility for placement of memorial markers in private 
cemeteries for non-Veterans, but rather would merely allow for the 
provision and placement of such markers in national and State Veterans 
cemeteries for eligible individuals whose deaths occurred on or after 
November 11, 1998. Eligible individuals include Veterans, spouses, 
surviving spouses, and dependent children whose remains were not 
available for burial.
    VA supports the concept contained in H.R. 3656, as a consistent 
applicability date would allow VA to provide this benefit in a manner 
that creates less confusion for claimants as well as simplifies and 
streamlines the administrative process for providing the headstone and 
marker benefit. VA recommends modifying the language of the amendment 
to make clear that the November 11, 1998, effective date applies to the 
death of the spouse or surviving spouse of a Veteran and the death of 
the dependent child of a Veteran, not the death of the Veteran.
    Originally, a memorial headstone or marker, which is provided when 
remains are unavailable for burial, was a benefit provided only in 
memory of Veterans who died in service. However, in 1998, Congress, for 
the first time, authorized VA to furnish memorial headstones or markers 
for non-Veterans, namely spouses or unremarried surviving spouses, who 
died after November 11, 1998. In 2006, Congress expanded this to 
include memorial headstones and markers for dependent children who died 
after December 22, 2006. And finally, in 2008, memorial headstones and 
markers were authorized for surviving remarried spouses who died on or 
after October 10, 2008.
    Variations in the effective dates for this benefit for each 
category of eligible individuals has caused emotional strain on 
families seeking to remember loved ones. VA supports and appreciates 
Congress' effort to address this. If H.R. 3656 were enacted, VA 
anticipates no significant increases in workload or cost to the 
Government. We estimate that enactment of this bill would result in 
mandatory costs of $410 for FY 2018, $2,029 over the 5-year period from 
FY 2018 through FY 2022, and $3,997 over the 10-year period from FY 
2018 through FY 2027.

                               H.R. 3657

    H.R. 3657 would amend 38 U.S.C. <l-arrow> 2306 to authorize VA to 
provide burial headstones and markers for Veterans' eligible spouses 
and dependent children interred at tribal organization cemeteries.
    VA supports H.R. 3657, which would ensure eligible Veterans' 
spouses and dependent children interred at tribal organization 
cemeteries have access to the same benefits as those interred in State 
cemeteries. Since 1980, VA has been authorized to provide burial 
headstones and markers to eligible spouses and dependent children of 
Veterans interred in Veterans' cemeteries owned by States, but not 
those owned by tribal organizations.
    However, VA would request the Subcommittee also consider expanding 
the applicability of H.R. 3657 to include memorial headstones and 
markers under section 2306(b) as well. This would ensure that VA can 
provide an appropriate headstone or marker for Veterans, spouses and 
dependents interred in tribal cemeteries or those whose remains are 
unavailable for burial but whose families wish to honor their memory in 
a tribal cemetery.
    If H.R. 3657 were enacted, even with the suggested expansion to 
include burial and memorial headstones and markers, VA anticipates no 
significant increases in workload or cost to the Government. We 
estimate that enactment of this bill would result in mandatory costs of 
$75,000 for FY 2018, $347,000 over the 5-year period from FY 2018 
through FY 2022, and $739,000 over the 10-year period from FY 2018 
through FY 2027.

                               H.R. 3705

    Section 2(a) of H.R. 3705 would require the Secretary to amend 38 
C.F.R. <l-arrow> 1.911 to require that certified mail be used by VA to 
send a written demand from the Secretary to a debtor along with the 
notice of rights. Debtors would be required to use certified mail when 
submitting a request for a waiver of indebtedness to the Secretary.
    Section 2(b) of the bill would require the Secretary to amend 
section 1.911 to require all communications with a debtor be in plain 
language including why the debtor owes money to the Department. 
Moreover, the options available to the debtor should be explained.
    VA does not support the passage of section 2(a) because it would 
adversely impact Veterans and the Department. It is notable that 
Veterans currently submit waiver requests to DMC via regular United 
States Mail, commercial carrier, facsimile, and electronic mail - as 
well as through the various VBA Regional Offices located throughout the 
nation. The potential adverse impact of the proposed legislation on 
Veterans include increased costs by requiring Veterans to use certified 
mail as opposed to utilizing regular mail or submitting waiver requests 
directly through a VBA Regional Office. Additionally, the proposal 
poses the risk to Veterans of missing the deadline for submitting a 
waiver request by requiring Veterans to use certified mail as opposed 
to expedited services such as facsimile, electronic mail, and overnight 
commercial carrier delivery. Moreover, Veterans would be required to 
find and travel to a post office to send a request for waiver by 
certified mail, as opposed to current practice that allows Veterans to 
use a wide array of methods to submit waiver requests, including 
regular mail, email, and facsimile.
    In addition to the adverse impact on Veterans, section 2(a) of the 
proposed legislation would adversely impact the Department by 
dramatically increasing costs to DMC. Specifically, it is estimated 
that costs related to DMC's initial demand and notification letters 
would increase by more than $7.4 million per year. In FY 2016, DMC 
mailed 2.5 million letters at a cost of $1.1 million. Sending the same 
number of letters via certified mail at a rate of $3.35 per piece would 
result in a mailing cost of $8.5 million - representing an increase of 
$7.4 million. Moreover, additional tracking of certified mail would be 
required, which would include developing new processes to reconcile the 
certifications (i.e., track signed and outstanding certifications) for 
the 2.5 million letters. We estimate that an additional 30 full-time 
employees would be needed by DMC just to track the certified mail at an 
estimated cost of $1.8 million per year. Combining the cost to DMC of 
certified mail and associated tracking totals $9.2 million annually or 
$46 million over 5 years.
    Section 2(a) of the proposed legislation would also adversely 
impact VBA by dramatically increasing costs. In FY 2016, VBA 
established approximately 470,000 overpayments of Compensation or 
Pension benefits. Most of these overpayments would have resulted in a 
debt notification at an annual average mail cost of $132,000. If 
Section 2(a) of the proposed legislation becomes law, costs related to 
VBA initial letters are estimated to increase to more than $1.6 million 
per year, with 5-year costs estimated at $8.3 million. An additional 
adverse impact to VBA stems from the fact that, at the present time, 
the contractors that handle printing of these letters cannot 
distinguish a debt letter from other notification letters, including 
award letters. Significant reprogramming of our letter generation 
processes would be required to address that deficiency. VBA would 
require additional time to determine a level of effort and associated 
costs for this reprogramming effort. Finally, it is notable that VBA is 
undergoing a significant modernization effort, which includes a move 
toward digital notifications for Veterans who ``Opt In.'' It is 
expected that moving toward digital notifications would reduce the cost 
to the Government and increase the likelihood that notifications are 
received timely. The proposed legislation may make it more difficult to 
transition to a digital format for notifications. In addition if the 
proposed legislation is inclusive of medical debts, VHA would have 
similar concerns noted by DMC with respect to the increased postal cost 
of monthly VHA medical statements sent to Veterans. VHA currently sends 
on average 21.6M statements per year to Veterans for medical copay 
debts at an average cost of $.40 per statement totaling $8.6M per year. 
If the legislation requires VHA to mail all statements of medical debts 
to Veterans by certified mail the postal costs would increase by more 
than $63.7M with a total estimated postal cost of $72.3M based on 
current lowest certified mail rate of $3.35/statement.

    VA generally supports the passage of section 2(b).

    As set forth previously, the combined cost to the DMC, VBA and VHA 
related to the implementation of section 2(a) of the bill would total 
$74.4 million in the first year and more than $370 million over 5 
years. Costs related to the implementation of section 2(b) would be 
minimal.
    This concludes my testimony. We appreciate the opportunity to 
present our views on these bills and look forward to working with the 
Subcommittee.

                                 <F-dash>
                 Prepared Statement of Elizabeth Curda
    Chairman Bost, Ranking Member Esty, and Members of the 
Subcommittee:

    I am pleased to be here today to discuss our views on the proposed 
veterans' benefits legislation that you are considering. My remarks 
will focus on the proposed Veterans Care Financial Protection Act of 
2017. \1\ This proposed legislation seeks to address the financial 
exploitation of veterans eligible for the Department of Veterans 
Affairs' (VA) pension benefits at the increased Aid and Attendance 
rate.
---------------------------------------------------------------------------
    \1\ H.R. 3122, 115th Cong. (2017). Currently, an identical bill is 
under consideration in the Senate (S. 1198).
---------------------------------------------------------------------------
    As you know, VA pensions are a needs-based benefit that provides 
certain veterans and their survivors with a minimum level of income. 
\2\ Specifically, these pensions provide benefits to low-income wartime 
veterans who are age 65 and older, or who are under age 65 but are 
permanently and totally disabled as a result of conditions unrelated to 
their military service. \3\ In addition, VA Aid and Attendance benefits 
help those who need the regular assistance of another person to perform 
everyday living activities-such as bathing, feeding, and dressing-as 
well as those who are in nursing homes due to mental or physical 
incapacity, and those meeting certain limited eyesight criteria.
---------------------------------------------------------------------------
    \2\ Eligibility for VA pension benefits is subject to income and 
net worth limitations. The annual payment for a veteran without a 
spouse or child receiving a pension is $12,907, but is $21,531 for a 
pension recipient without dependents requiring Aid and Attendance.
    \3\ Veterans whose disabilities were caused or aggravated as part 
of their military service can receive disability compensation benefits. 
These veterans may also be eligible to receive Aid and Attendance, 
which increases their monthly disability compensation payments.
---------------------------------------------------------------------------
    Veterans and surviving spouses who are eligible for a VA pension 
may also be eligible to receive Aid and Attendance benefits, which 
increase the amount of the monthly pension they receive from VA. In 
fiscal year 2016, VA paid an estimated $3.2 billion in enhanced pension 
benefits-pensions and Aid and Attendance benefits-to over 243,000 
recipients.
    To help protect individuals eligible for enhanced pension benefits 
from dishonest, predatory, or otherwise unlawful practices, a provision 
in the proposed Veterans Care Financial Protection Act of 2017 would 
require VA to work with federal and state agencies and experts VA 
considers appropriate to ``develop and implement'' standards that 
protect these individuals from such practices. If VA fails to submit 
the standards to the Senate and House Committees on Veterans' Affairs 
within 180 days of enactment, the proposed legislation would mandate 
that GAO submit a report to those committees containing standards that 
GAO determines would be effective in protecting these beneficiaries. In 
addition, GAO would be required to complete a study on the standards 
implemented under the act as currently drafted.
    Today, I will discuss (1) our prior work related to VA pension 
benefits, and (2) our observations on certain provisions within the 
proposed Veterans Care Financial Protection Act of 2017 as currently 
drafted. This statement is in part based on several reports issued 
since May 2012 as well as our review of the proposed legislation. More 
detailed information on our objectives, scope, and methodology for that 
prior work can be found in the issued reports we cite in this 
statement. We conducted the work upon which this statement is based in 
accordance with generally accepted government auditing standards. Those 
standards require that we plan and perform the audit to obtain 
sufficient, appropriate evidence to provide a reasonable basis for our 
findings and conclusions based on our audit objectives. We believe that 
the evidence obtained provides a reasonable basis for our findings and 
conclusions based on our audit objectives.

Our Prior Work on VA Pension Benefits

    In our prior work, we have identified potential threats to the 
financial security of veterans who applied for pension benefits. For 
instance, in 2012, we identified over 200 organizations throughout the 
country-such as financial planners-that marketed their services to help 
veterans qualify for pension benefits by transferring their assets to 
lower their net worth. \4\ We found that sometimes these organizations 
offered veterans products and services that could adversely affect 
them. For example, some organizations sold deferred annuities that 
would make the recipient unable to access funds in the annuity during 
their expected lifetime without facing withdrawal fees. In 2013, we 
also reported on shortcomings in VA's process for ensuring that 
representatives approved to assist veterans with the claims process 
were adequately knowledgeable and in good moral character as required 
by law. \5\
---------------------------------------------------------------------------
    \4\ GAO, Veterans' Pension Benefits: Improvements Needed to Ensure 
Only Qualified Veterans and Survivors Receive Benefits, GAO 12 540 
(Washington, D.C.: May 15, 2012).
    \5\ GAO, VA Benefits: Improvements Needed to Ensure Claimants 
Receive Appropriate Representation, GAO 13 643 (Washington, D.C.: Aug. 
1, 2013).
---------------------------------------------------------------------------
    GAO made 8 recommendations to VA to address these and other 
shortcomings and a matter for congressional consideration to establish 
a look-back and penalty period for veterans who transfer assets before 
applying for pension benefits. VA has implemented all 8 of these 
recommendations and is taking actions to address the matter for 
congressional consideration. Specifically, VA developed proposed 
regulations that would establish a look-back and penalty period for 
veterans who transfer assets before applying for pension benefits, and 
increased training requirements for representatives. \6\ Our prior work 
has focused more generally on issues related to gaining access to VA 
pension benefits for veterans, but did not specifically examine the 
potential vulnerabilities of veterans in need of Aid and Attendance. 
Individuals receiving the increased benefit from VA's Aid and 
Attendance could be vulnerable to dishonest, predatory, or otherwise 
unlawful practices, which the proposed legislation aims to address.
---------------------------------------------------------------------------
    \6\ More generally, GAO has a body of work on elder abuse, 
including financial exploitation. We have found that preventing 
exploitation by individuals-such as financial services providers, power 
of attorney agents, and in-home caregivers-is difficult. See, for 
example, GAO, Elder Justice: National Strategy Needed to Effectively 
Combat Elder Financial Exploitation, GAO 13 110 (Washington, D.C.: Nov. 
15, 2012) and GAO, Elder Abuse: The Extent of Abuse by Guardians Is 
Unknown, but Some Measures Exist to Help Protect Older Adults, GAO 17 
33 (Washington, D.C.: Nov. 16, 2016).

---------------------------------------------------------------------------
Our Views on Proposed Legislation

    As currently drafted, the Veterans Care Financial Protection Act of 
2017 contains three provisions that we will comment on today. First is 
the proposed requirement for VA to develop and submit standards to the 
Senate and House Committees on Veterans' Affairs within 180 days of 
enactment. Second is the proposed requirement to have GAO submit a 
report to those committees containing standards that GAO determines 
would be effective in protecting individuals should VA not meet the 
deadline in the proposed legislation. Third is the proposed requirement 
for GAO to complete a study on the standards implemented under the 
proposed legislation. Our observations on each of these proposed 
requirements follow.

    <bullet>  Protecting veterans from financial exploitation is vital, 
and developing a set of standards could help VA combat such practices. 
However, this proposed legislation does not clearly specify whether the 
standards to protect veterans are intended to be legally binding, 
because for example, it does not include an enforcement mechanism. 
Agencies may issue guidance that is not legally binding but may help 
agencies interpret regulations or disseminate suggested practices. 
Establishing legally binding regulations require procedures established 
in the Administrative Procedure Act, such as requiring agencies to 
publish a notice of proposed rulemaking in the Federal Register, among 
other steps. \7\ Clarifying whether the standards are intended to be 
legally binding is important for determining what steps VA would need 
to take and whether completing these steps within 180 days is feasible.
---------------------------------------------------------------------------
    \7\ See GAO, Regulatory Guidance Processes: Selected Departments 
Could Strengthen Internal Control and Dissemination Practices, GAO 15 
368 (Washington, D.C.: April 16, 2015).
---------------------------------------------------------------------------
    <bullet>  As currently drafted, if VA is unable to meet this 180 
day timeframe, section 2(b) of the proposed legislation, entitled 
``Conditional Recommendation by Comptroller General,'' would require 
GAO to submit a report to the Senate and House Committees on Veterans' 
Affairs on effective standards for the program. It would not be 
appropriate for GAO subsequently to audit standards that GAO had 
recommended. We follow Generally Accepted Government Auditing Standards 
(GAGAS), which require us to maintain independence, and identify and 
mitigate threats to our independence, for our audits. For example, one 
such threat to independence that GAGAS identifies is the ``self-review 
threat,'' which results from auditors reviewing a service or work that 
they have provided to an agency that is the subject of the audit. In 
addition, it would be inappropriate for GAO to set these types of 
standards for VA, an executive branch agency. Thus, we recommend 
removing the proposed provision requiring GAO to submit a report 
containing standards.
    <bullet>  The legislation, as proposed, would also require GAO to 
conduct a study on the standards VA implemented to protect these 
veterans. By itself, this proposed requirement is an appropriate role 
for GAO. However, if this requirement is combined with the provision 
that requires GAO to submit a report that recommends standards, then 
under GAGAS we would be unable to audit subsequent VA efforts in this 
area. This is because we would be auditing the effectiveness of the 
standards that we had established, and therefore, we would not be 
independent.

    Although it is inappropriate for GAO to set standards for a VA 
program, there are other ways that we could support the legislative 
priorities of Congress for this VA program. For example, we have 
extensive experience with setting guidance in the form of auditing 
standards for the purpose of our own mission that could be useful to 
VA. In developing auditing standards, we employ a deliberative and 
inclusive process for periodically revising GAGAS. In revising GAGAS, 
proposed changes undergo an extensive deliberative process internally 
and externally, which includes key stakeholders. Internally we follow 
sound project planning practices, which include creating a project time 
line and meeting with all relevant, internal stakeholders enterprise-
wide to obtain and document agreement with the engagement plan. 
Externally, we collect public comments and input from experts drawn 
from the private and public sectors as well as academia on our auditing 
standards, and we thoroughly consider the views of all parties when 
finalizing revisions. \8\
---------------------------------------------------------------------------
    \8\ GAO, Government Auditing Standards: 2011 Revision, GAO 12 331G 
(Washington, D.C.: December 1, 2011).
---------------------------------------------------------------------------
    In conclusion, enhanced pension benefits provide a critical support 
to veterans with disabilities, many of whom are elderly and have 
limited financial resources to care for themselves. Individuals who 
seek to exploit these veterans can cause real financial harm. Our 
continued ability to conduct audits in this area by maintaining 
independence and mitigating threats to that independence will help 
Congress, VA, and the public assess program performance.
    Chairman Bost, Ranking Member Esty, and Members of the 
Subcommittee, this concludes my prepared statement. I would be pleased 
to respond to any questions that you may have at this time.

GAO Contact and Staff Acknowledgments

    For further information about this testimony, please contact 
Elizabeth Curda at (202) 512-7215 or <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="27445255434642674046480940485109">[email&#160;protected]</a> Contact points for 
our Offices of Congressional Relations and Public Affairs may be found 
on the last page of this testimony. Other key contributors to this 
testimony include Nyree Ryder Tee (Assistant Director), Sheranda 
Campbell, Daniel Concepcion, Helen Desaulniers, Holly Dye, Alex 
Galuten, Kristen Kociolek, Walter Vance, and James Whitcomb.

    This is a work of the U.S. government and is not subject to 
copyright protection in the United States. The published product may be 
reproduced and distributed in its entirety without further permission 
from GAO. However, because this work may contain copyrighted images or 
other material, permission from the copyright holder may be necessary 
if you wish to reproduce this material separately.

GAO's Mission

    The Government Accountability Office, the audit, evaluation, and 
investigative arm of Congress, exists to support Congress in meeting 
its constitutional responsibilities and to help improve the performance 
and accountability of the federal government for the American people. 
GAO examines the use of public funds; evaluates federal programs and 
policies; and provides analyses, recommendations, and other assistance 
to help Congress make informed oversight, policy, and funding 
decisions. GAO's commitment to good government is reflected in its core 
values of accountability, integrity, and reliability.

Obtaining Copies of GAO Reports and Testimony

    The fastest and easiest way to obtain copies of GAO documents at no 
cost is through GAO's website (http://www.gao.gov). Each weekday 
afternoon, GAO posts on its website newly released reports, testimony, 
and correspondence. To have GAO e mail you a list of newly posted 
products, go to http://www.gao.gov and select ``E-mail Updates.''

Order by Phone

    The price of each GAO publication reflects GAO's actual cost of 
production and distribution and depends on the number of pages in the 
publication and whether the publication is printed in color or black 
and white. Pricing and ordering information is posted on GAO's website, 
http://www.gao.gov/ordering.htm.
    Place orders by calling (202) 512-6000, toll free (866) 801-7077, 
or TDD (202) 512-2537.
    Orders may be paid for using American Express, Discover Card, 
MasterCard, Visa, check, or money order. Call for additional 
information.

Connect with GAO

    Connect with GAO on Facebook, Flickr, LinkedIn, Twitter, and 
YouTube.
    Subscribe to our RSS Feeds or E-mail Updates. Listen to our 
Podcasts.
    Visit GAO on the web at www.gao.gov and read The Watchblog.

To Report Fraud, Waste, and Abuse in Federal Programs

    Contact: Website: http://www.gao.gov/fraudnet/fraudnet.htm
    E-mail: <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="84e2f6e5f1e0eae1f0c4e3e5ebaae3ebf2">[email&#160;protected]</a>
    Automated answering system: (800) 424-5454 or (202) 512-7470

Congressional Relations

    Katherine Siggerud, Managing Director, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="ff8c9698989a8d8a9b94bf989e90d1989089">[email&#160;protected]</a>, (202) 
512-4400, U.S. Government Accountability Office, 441 G Street NW, Room 
7125, Washington, DC 20548

Public Affairs

    Chuck Young, Managing Director, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="265f4953484145176641474908414950">[email&#160;protected]</a>, (202) 512-4800, 
U.S. Government Accountability Office, 441 G Street NW, Room 7149, 
Washington, DC 20548

Strategic Planning and External Liaison

    James-Christian Blockwood, Managing Director, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="a6d5d6c3cae6c1c7c988c1c9d0">[email&#160;protected]</a>, (202) 
512-4707
    U.S. Government Accountability Office, 441 G Street NW, Room 7814, 
Washington, DC 20548
                             GAO STATEMENT
                           VETERANS BENEFITS
   GAO's Proposed Role in Reviewing Efforts to Protect Veterans from 
                         Financial Exploitation
What GAO Found

    In prior work, GAO has found that veterans who applied for 
Department of Veterans Affairs (VA) pension benefits could be targeted 
for financial exploitation. For example, in 2012, GAO identified over 
200 organizations, such as financial planners, that marketed their 
services to help veterans qualify for needs-based VA pensions. GAO 
found that some organizations offered veterans products and services 
that could adversely affect them by transferring their assets to lower 
their net worth. For example, some organizations sold veterans deferred 
annuities that might limit access to funds during their expected 
lifetimes. Additionally, in 2013, GAO reported shortcomings in VA's 
process for ensuring that representatives approved to assist veterans 
with the VA claims process were adequately knowledgeable about the 
process and were of good moral character, as required by law. GAO made 
8 recommendations to VA to address these and other shortcomings and a 
matter for congressional consideration to establish a look-back and 
penalty period for veterans who transfer assets before applying for 
pension benefits. VA has implemented all 8 of these recommendations and 
is taking actions to establish a look-back and penalty period.
    As currently drafted, the proposed Veterans Care Financial 
Protection Act of 2017 contains three provisions that GAO will comment 
on today: (1) VA would be required to develop and submit standards that 
protect veterans from dishonest and predatory practices to the Senate 
and House Committees on Veterans' Affairs within 180 days of enactment. 
(2) GAO would be required to submit a report to those committees 
containing standards that GAO determines would be effective in 
protecting individuals should VA not meet this deadline. (3) GAO would 
be required to complete a study on the standards implemented under the 
proposed act. GAO's observations on each of these three proposed 
requirements follow.

    <bullet>  The proposed legislation does not clearly specify whether 
the standards are intended to be legally binding. Clarifying whether 
the standards are intended to be legally binding is important for 
determining what steps VA would need to take and whether completing 
these steps within 180 days is feasible.
    <bullet>  If VA does not meet the 180 day deadline, the proposed 
legislation requiring GAO to report on standards is problematic because 
it could hamper GAO's ability to meet the audit standards by which GAO 
conducts its audits. These audit standards require GAO to maintain 
independence and identify and mitigate threats to its independence. For 
example, threats include GAO reviewing a service or work that it has 
previously performed for an agency; in this case, recommending 
standards. If GAO develops standards that VA then implements, this 
could hamper GAO's ability to audit in an independent manner subsequent 
VA efforts in this area. In addition, it would be inappropriate for GAO 
to set these types of standards for VA, an executive agency. Thus, GAO 
recommends removing this proposed provision.
    <bullet>  The proposed legislation would also require GAO to 
conduct a study on the standards VA implemented to protect these 
veterans. By itself, this requirement is an appropriate role for GAO.

Why GAO Did This Study

    The proposed Veterans Care Financial Protection Act of 2017 seeks 
to address the financial exploitation of aging and disabled veterans 
who are eligible for certain VA benefits. VA pension benefits are 
available to certain wartime veterans and their surviving spouses with 
limited means. Those who need additional assistance with everyday 
living activities may also be eligible to receive VA Aid and Attendance 
benefits, which increase the amount of the monthly pension they receive 
from VA.
    GAO was asked to provide input on the proposed Veterans Care 
Financial Protection Act of 2017, which is being considered by the 
House and Senate. This legislation, as proposed, would require the 
development of federal and state standards for protecting individuals 
eligible for pension and Aid and Attendance benefits from dishonest, 
predatory, or unlawful practices.
    In this statement, GAO discusses (1) its prior work related to VA 
pension benefits, and (2) its observations on certain provisions within 
the proposed legislation as currently drafted. This statement is based 
on prior GAO work on veterans' benefits and GAO's review of the 
proposed legislation.

                                 <F-dash>
                    Prepared Statement of Alex Zhang
                                   ON
 ``H.R. 1721, H.R. 1900, H.R. 3122, H.R. 3656, H.R. 3657, AND PENDING 
                             LEGISLATION''
         NATIONAL VETERANS AFFAIRS AND REHABILITATION DIVISION
                          THE AMERICAN LEGION
    Chairman Bost, Ranking Member Esty and distinguished members of the 
Subcommittee on Disability Assistance and Memorial Affairs, on behalf 
of National Commander Denise H. Rohan and The American Legion, the 
country's largest patriotic wartime service organization for veterans, 
comprising over 2 million members and serving every man and woman who 
has worn the uniform for this country, we thank you for the opportunity 
to testify on behalf of The American Legion's positions on the 
following pending legislation.
                               H.R. 1721
    To direct the Secretary of Veterans Affairs to designate at least 
one city in the United States each year as an ``American World War II 
City'', and for other purposes.
    The provisions in this bill fall outside the scope of established 
resolutions of The American Legion. As a large, grassroots 
organization, The American Legion takes positions on legislation based 
on resolutions passed by the membership. With no resolutions addressing 
the provisions of the legislation, The American Legion is researching 
the material and working with our membership to determine the course of 
action that best serves veterans.

    The American Legion has no position on H.R. 1721.
          H.R. 1900: National Veterans Memorial and Museum Act
    To designate the Veterans Memorial and Museum in Columbus, Ohio, as 
the National Veterans Memorial and Museum, and for other purposes.
    One of the founding principles of The American Legion is: ``To 
preserve the memories and incidents of our associations in the great 
wars.'' The Veterans Memorial and Museum in the State of Ohio is 
currently conducting a campaign to raise money to construct a memorial 
and museum in Columbus, Ohio in honor of all military veterans. They 
have currently raised in excess of $75 million for the design and 
construction. Construction of the 50,000-square-foot facility started 
in 2015, and completion is planned for 2018.
    This legislation would designate the Veterans Memorial and Museum 
as the National Veterans Memorial and Museum (NVMM). The NVMM's purpose 
is to honor the contributions of our nation's veterans, connect 
civilians and veterans, inspire communities and citizens to honor 
service in the military, and educate our youth on the value of serving 
our nation. Senator John Glenn served as the founding chairman of the 
Veterans Memorial and Museum Advisory Committee and it was his vision 
to construct this memorial and museum in the heartland of America so 
more citizens would be able to visit in order to honor those who served 
this nation in uniform.
    Through Resolution No. 88: National Veterans Memorial and Museum, 
The American Legion, the nation's largest wartime veterans service 
organization, is in favor of honoring veterans with such a memorial. 
\1\
---------------------------------------------------------------------------
    \1\ The American Legion Resolution No. 88 (2017): National Veterans 
Memorial and Museum

    The American Legion supports H.R. 1900.
       H.R. 3122: Veterans Care Financial Protection Act of 2017
    To protect individuals who are eligible for increased pension under 
laws administered by the Secretary of Veterans Affairs on the basis of 
need of regular aid and attendance from dishonest, predatory, or 
otherwise unlawful practices, and for other purposes.
    A growing number of elderly veterans depend on the assistance of 
caregivers, family, and friends to complete basic daily activities. The 
Department of Veterans Affairs (VA) assists any low-income veteran that 
is not able to care for themselves by assigning them Aid and Attendance 
benefits (A&A). A&A benefits help pay for assisted living or in-home 
personal care for veterans who qualify for a VA pension and are 
housebound or require the aid and attendance of another person. 
Unfortunately, scam artists have started targeting veterans by charging 
them fees to obtain A&A benefits even though the application process is 
free.
    Unfortunately, we are seeing an increase in bad actors exploiting 
assistance programs to veterans and many times these bad actors target 
elderly veterans because of their unfamiliarity with the VA 
bureaucracy. Some additional examples of how these scam artists target 
veterans include:

    <bullet>  Charging a fee with promises to expedite the process, 
when there is no mechanism for expedited approval;
    <bullet>  Although the veterans net worth is too high to qualify 
for the benefits, veterans are offered ``help'' to qualify. Bad actors 
take control of the veteran's assets and move these assets into an 
irrevocable trust or an annuity. Many times, these elderly veterans 
cannot access their funds for many years and are disqualified from 
other assistance, like Medicaid; and
    <bullet>  Some retirement homes recruit veterans with the promise 
that the veteran will receive the A&A benefit to cover the cost of the 
nursing home. If they are denied A&A benefits, the veteran is then 
responsible for paying out of pocket.

    This legislation is asking for two provisions to protect veterans 
that might have been susceptible to these financial scams. This 
legislation would require the VA Secretary to work with other federal, 
state and outside experts to develop and implement state and federal 
standards that protect veterans from dishonest, predatory, or otherwise 
unlawful practices. Additionally, this legislation would direct the 
U.S. Government Accountability Office (GAO) to conduct a study 18 
months after the enactment of the law to determine the extent to which 
the states, the VA, and any other federal agency have implemented the 
standards developed. If passed this legislation would help protect 
veterans from financial scams, especially those most at risk.
    Through Resolution No. 57: Prevent Exploitation of Veterans and 
Family Members Applying for Benefits, to Include Aid and Attendance, 
The American Legion supports any legislative proposal that criminalizes 
the practice of charging veterans for claims assistance and creating a 
for-profit business based on these practices. \2\
---------------------------------------------------------------------------
    \2\ The American Legion Resolution No. 57 (2016): Prevent 
Exploitation of Veterans and Family Members Applying for Benefits, to 
Include Aid and Attendance

    The American Legion supports H.R. 3122.
                               H.R. 3656
    To amend title 38, United States Code, to provide for a consistent 
eligibility date for provision of Department of Veterans Affairs 
memorial headstones and markers for eligible spouses and dependent 
children of veterans whose remains are unavailable.
    The Department of Veterans Affairs (VA) provides a memorial 
headstone or marker for eligible individuals or groups deceased while 
on active duty or veterans whose remains are not recovered or 
identified or are buried at sea, donated to science, or whose cremated 
remains have been scattered. The memorial headstone or marker may be 
placed in a private, military, or veteran cemetery (national or state).
    Memorial headstones and markers may also be furnished in national, 
military post/base or state veterans cemeteries to eligible spouses and 
dependent children whose remains are unavailable for interment, whether 
or not they predecease the eligible veteran.
    The current applicability date for spouses is after November 11, 
1998 and dependent children after December 22, 2006. Congress first 
established eligibility for spouses in PL 105-368 section 401(a), which 
passed on November 11, 1998. Congress then extended eligibility for 
dependent children in 2006 as part of P.L. 109-461 section 401 on 
December 22, 2006. Since P.L. 109-461 did not extend eligibility 
retroactively, only dependent children whose remains are unavailable 
after December 22, 2006, are eligible for a marker.
    H.R. 3656 would make the eligibility date for dependent children 
the same as the date for spouses. VA requested this legislative change 
in their latest budget submission and costs associated with this 
proposal are expected to be insignificant. Furthermore, this proposed 
change would simplify the process and reduce confusion for veterans and 
their families.

    The American Legion supports H.R. 3656.
                               H.R. 3657
    To amend title 38, United States Code, to authorize the Secretary 
of Veterans Affairs to provide headstones and markers for the graves of 
spouses and children of veterans who are buried in tribal cemeteries.
    The Department of Veterans Affairs (VA) currently provides, on 
request, a headstone or marker for eligible spouses or dependent 
children who are buried or interned in a national, military post/base 
or state veterans cemeteries. Spouses and dependents are not eligible 
for a government-furnished headstone or marker if they are buried in a 
private or tribal cemetery.
    H.R. 3657 would ensure that veterans' spouses and children who are 
buried at tribal veterans cemeteries are provided government-furnished 
headstones or markers, the same as family members buried at national 
and state veterans cemeteries.
    Native American veterans have earned and deserve the same rights, 
privileges and honor that other veterans receive. The American Legion 
Resolution No. 146 calls on Congress to ensure that veterans benefits 
are provided equitably and consistently for all. \3\ This legislation, 
by correcting an inequity, is consistent with the intent of this 
resolution.
---------------------------------------------------------------------------
    \3\ Resolution No. 146 (2016): Veterans Receive Same Level of 
Benefits

    The American Legion supports H.R. 3657.
           Draft Bill: Veterans Fair Debt Notice Act of 2017
    To direct the Secretary of Veterans Affairs to require the use of 
certified mail and plain language in certain debt collection 
activities.
    The Department of Veteran Affairs (VA) reported issuing improper 
payment to beneficiaries totaling approximately $5.5 billion during 
Fiscal Year 2016. If the beneficiaries were not entitled to the 
payment, a debt would be created and sent to the Department of Veterans 
Affairs Debt Management Center (DMC) for collection action. In an 
attempt to collect the debt, DMC will begin communicating with the 
beneficiary through written correspondence. If the beneficiary fails to 
respond to the notifications and is actively receiving benefits, VA 
will garnish any future benefit to recover the debt. If the beneficiary 
is not actively receiving VA benefits, VA will refer the debt to the 
Treasury Department for collection.
    The American Legion has heard from many beneficiaries that they 
never received any correspondence letters from VA. Many times, the 
address on file is not correct. Beneficiaries move and forget to update 
their address with VA. Additionally, many beneficiaries do update their 
address with the Veterans Health Administration (VHA) but because VHA 
and the Veterans Benefits Administration (VBA) have two systems that 
are not integrated, the updated address is not shared with VBA. Once a 
notification letter is mailed out by DMC, if they do not hear from the 
beneficiary within 60 days they will take action to garnish the benefit 
or transfer the debt to the Department of the Treasury.
    The American Legions is concerned that the DMC and VA do not verify 
that the beneficiary has received, understood, and is aware of how to 
remedy the collection process before the debt is referred to 
collections or benefits garnished. DMC's lack of confirming that the 
notification has been received can cause further harm to the 
beneficiary and possibly place them in a financial burden. Failure to 
receive the notification can also cause the beneficiary to miss 
important deadlines such as requesting a waiver which must be made 
within 30 days of the first notification letter. Additionally, The 
American Legion is also concerned that the notification letters do not 
clearly state how the debt originated.
    This legislation, if enacted, would require the DMC to implement 
two initiatives in order to ensure that their notification letter is 
received and understood by the beneficiary. First, it would require 
that certified mail is used by the DMC when making a demand to a 
debtor. Second, it would require the DMC to clearly explain why the 
debtor owes money and all available options. If passed this legislation 
would ensure that written correspondence from the DMC to debtors is 
received and understood before taking action to garnish their benefit 
or forward the debt to the Treasury Department for collection action.
    Through Resolution No. 377: Support for Veteran Quality of Life, 
The American Legion supports any legislative proposal that urges 
Congress and the Department of Veterans Affairs to enact legislation 
and programs within the VA that will enhance, promote, restore or 
preserve benefits for veterans and their dependents, including, but not 
limited to the following: timely access to quality VA health care; 
timely decisions on claims and receipt of earned benefits; and final 
resting places in national shrines and with lasting tributes that 
commemorate their service. \4\
---------------------------------------------------------------------------
    \4\ The American Legion Resolution No. 377 (2016): Support for 
Veteran Quality of Life

    The American Legion supports the Draft Bill titled: Veterans Fair 
Debt Notice Act of 2017.
                               Conclusion
    As always, The American Legion thanks this subcommittee for the 
opportunity to elucidate the position of the over 2 million veteran 
members of this organization. For additional information regarding this 
testimony, please contact Mr. Derek Fronabarger, Deputy Director of The 
American Legion's Legislative Division at (202) 861-2700 or 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="a1c5c7d3cecfc0c3c0d3c6c4d3e1cdc4c6c8cecf8fced3c68f">[email&#160;protected]</a>

                                 <F-dash>
                   Prepared Statement of Leroy Acosta
    Mr. Chairman and Members of the Subcommittee:

    Thank you for inviting DAV (Disabled American Veterans) to testify 
at this legislative hearing of the Subcommittee on Disability 
Assistance and Memorial Affairs. As you know, DAV is a non-profit 
veterans' service organization comprised of 1.3 million wartime 
service-disabled veterans that is dedicated to a single purpose: 
empowering veterans to lead high-quality lives with respect and 
dignity. DAV is pleased to present our views on the bills under 
consideration by the Subcommittee, and we appreciate your invitation.
                               H.R. 1721
    This bill designates Wilmington, North Carolina, as The First 
American World War II City and directs the Secretary of Veterans 
Affairs to consult with the Secretary of Defense to designate at least 
one city in the United States each year as an American World War II 
City.
    The criteria for a city to be considered an American World War II 
City include the city's contributions to the war effort during World 
War II related to defense manufacturing, bond drives, armed forces 
service and military facilities in the particular city. In addition, 
the efforts by a city to preserve its contributions during World War 
II, establishment of preservation organizations or museums, restoration 
of World War II facilities and recognition of veterans who served in 
World War II, will be considered.

    While DAV does not have a resolution specific to this issue, we are 
not opposed to passage of this legislation.
        H.R. 1900, the National Veterans Memorial and Museum Act
    This legislation would designate the Veterans Memorial and Museum 
in Columbus, Ohio, as the National Veterans Memorial and Museum.
    As a civic landmark and cultural institution in Columbus, Ohio, the 
Veterans Memorial and Museum is being constructed to honor, connect, 
inspire and educate Americans about the service and sacrifice of more 
than 40 million veterans, more than half of whom are alive today, and 
1.1 million deceased service members who have defended our nation's 
freedoms.

    DAV does not have a resolution specific to this issue, and has no 
formal position on the bill.
       H.R. 3122, Veterans Care Financial Protection Act of 2017
    This legislation directs the Secretary of Veterans Affairs (VA) to 
collaborate with agencies of the federal government, states and 
appropriate experts to develop and implement standards to protect 
individuals eligible for increased pension due to regular aid and 
attendance from dishonest, predatory or otherwise unlawful practices.
    This bill mandates the VA to submit a report to both the House and 
Senate Veterans' Affairs Committees concerning the standards developed 
no later than 180 days after enactment of this legislation. In 
addition, this legislation directs the Comptroller General of the 
United States, not later than 540 days after enactment, to complete a 
study on standards implemented to protect those in need of regular aid 
and attendance.

    While DAV does not have a resolution specific to this issue, we 
unfortunately continue to hear stories about various schemes to take 
advantage of elderly and disabled veterans receiving VA benefits. This 
measure seeks to address this issue and appears beneficial. Therefore, 
we are not opposed to passage of this legislation.
                               H.R. 3656
    H.R. 3656 would establish a consistent applicability date for 
provision of memorial headstones and markers for eligible non-veteran 
individuals.
    Under present law, each class of non-veterans eligible to receive a 
memorial headstone or marker has a different effective date. For 
example, a surviving spouse who dies on or after November 11, 1998, is 
eligible for a headstone or marker. However, only dependent children 
who die on or after December 22, 2006, are eligible. There are 
situations in which the VA may be able to provide a marker for the 
parent, but not the child due to the inconsistency in the dates.
    This legislation assigns an eligibility date of on or after 
November 11, 1998, for a VA memorial headstone or marker for a 
veteran's spouse and dependent children whose remains are not available 
for burial. These headstones and markers bear the inscription ``IN 
MEMORY OF'' as their first line.

    While DAV does not have a resolution specific to this issue, we are 
not opposed to the passage of this legislation.
                               H.R. 3657
    This bill would authorize the VA to provide headstones and markers 
for the graves of spouses and children for veterans who are buried in 
tribal cemeteries. Under current law, spouses and dependents are not 
eligible for a government-furnished headstone or marker unless they are 
buried in a national cemetery, state veterans' cemetery, or military 
post/base cemetery.

    While DAV does not have a resolution specific to this issue, we are 
not opposed to the passage of this legislation
           Draft Bill - Veterans Fair Debt Notice Act of 2017
    This draft legislation would require the Secretary of Veterans 
Affairs to utilize certified mail and plain language in certain debt 
collection activities.
    Consistent with the intent of DAV Resolution No. 213, which calls 
for alleviating undue financial hardship in processing overpayments and 
notifying veterans of debt, we support this bill. Veterans Fair Debt 
Notice Act of 2017, proposes to secure notification to debtors of debt 
collection actions with a plain language explanation of the debt.
    Under 38 C.F.R. <l-arrow> 1.912A(a), the Department of Veterans 
Affairs (VA) has the authority to collect debts by offset against any 
current or future VA benefit payments to the debtor. 38 C.F.R. 
<l-arrow> 1.912A(b), notes if the debtor submits a written dispute of 
the debt, a written request for waiver, or a written request for a 
hearing on the waiver, within thirty days of notification, VA cannot 
start collection of the debt by offset of the next benefit payment. 
Because this legislation requires the Secretary to use certified mail, 
which is conditional on a signature of receipt, it brings up the 
significant question of ``What is the date of notification?''
    Currently, the date of notification is defined as the date of the 
letter notifying a claimant. However, this legislation is mandating 
certified mail which requires the debtor to sign for the notification 
letter. Therefore, the date of signed receipt of certified mail by the 
debtor should be considered the date of notification. This date of 
notification will then start the 30-day time period for the debtor to 
respond with a written dispute of the debt, a written request for 
waiver, or a written request for a hearing on the waiver.
    Section (a)(2) of this legislation proposes certified mail be used 
to send ``A request for a waiver from a debtor to the Secretary under 
subsection (c)(2) of such section.'' We believe section (a)(2) requires 
clarification. When read within the context of subsection (c)(2), it 
appears to require the debtor to use certified mail to send a waiver 
request to the Secretary. As this would place an undue burden and 
potential hardship upon the debtor (veteran), we would oppose any such 
requirement.
    We applaud the provision in the bill requiring a plain language 
explanation of why the debtor owes money. The overpayment and debt 
process can be confusing, complex and overwhelming to many veterans who 
are left guessing as to why the debt was created. We agree that a 
simple and plain explanation should be required in all debt 
notifications.

Recommendations

    To ensure clarification of this legislation, while preserving the 
intent and best interests of veterans and their families, we recommend 
the following:

    1.Section (a)(2) needs clarification to ensure the true meaning and 
intent. We suggest language be used to clarify the Secretary is sending 
the request for waiver to the debtor by certified mail.

    As noted above, section (a)(2) can be interpreted to read that the 
debtor is required to use certified mail to send a waiver request to 
the Secretary. Not only would this place an undue burden and hardship 
on the debtor, it would require that veterans service organizations 
(VSO) who hold power of attorney for the veteran and receive the waiver 
request from the debtor, to send the waiver request via certified mail 
to the VA. In many cases, the representative is a VSO and most VSOs are 
co-located with the VA, which would make this requirement impractical.

    2.Amend the proposed legislation to allow for an additional section 
for clarification of the date of notification.

    We suggest adding section (c) to indicate that the date of 
notification of the debt is the date of signed receipt of certified 
mail by the debtor. This date of notification will then start the 30-
day time period for the debtor to respond with a written dispute of the 
debt, a written request for waiver, or a written request for a hearing 
on the waiver. This will ensure the debtor has 30 days from the actual 
date of notification and will alleviate any potential loss of time due 
to delayed delivery of the notice of debt.

    3.Additionally, we draw your attention to DAV Resolution No. 213, 
which calls for alleviating undue financial hardship on the veteran 
debtor in cases when processing of the veteran's change in status is 
delayed by VA for 90 days or more after timely notification by the 
veteran of such change. Specifically, DAV's resolution supports the 
automatic waiver of such debt if the VA takes more than 90 days to 
process the Notice of Waiver of Compensation for Drill Pay or process 
any changes to dependency after notification by the veteran. As this 
resolution reflects the same overarching intent as the draft measure, 
we respectfully request the Subcommittee consider amending this 
legislation to include this provision and our other two 
recommendations.

    Mr. Chairman, this concludes DAV's testimony. Thank you for the 
opportunity to testify at today's hearing and offer our position on the 
bills being considered before the Subcommittee.

                                 <F-dash>
                 Prepared Statement of Blake C. Ortner
                               CONCERNING
                          PENDING LEGISLATION
    Chairman Bost, Ranking Member Esty, and members of the 
Subcommittee, Paralyzed Veterans of America (PVA) would like to thank 
you for the opportunity to provide our views on pending legislation 
before the Subcommittee.

H.R. 1721, designation of American World War II cities

    This bill would recognize specific cities not just for their great 
contributions on the home front during World War II, but also their 
efforts to preserve the city's structures and relics from that era. PVA 
supports this bill which encourages cities to preserve this great 
heritage.

H.R. 1900, the ``National Veterans Memorial and Museum Act''

    PVA supports designating the Veterans Memorial and Museum in 
Columbus, Ohio, currently being constructed, as a National Veterans 
Memorial and Museum. It is the only museum of its kind, and it is 
intended to reach veterans of all eras, from every part of the United 
States, and from all branches of service. Given the scope of the 
project and its intended audience, a national designation is 
appropriate.

H.R. 3122, the ``Veterans Care Financial Protection Act of 2017"

    This proposal would require the Secretary to work with federal and 
state officials to establish standards to protect against unscrupulous 
actors that take advantage of veterans in need of aid and attendance 
benefits. According to organizations such as AARP and the Federal Trade 
Commission, senior veterans have increasingly become subject to scams 
involving insurance agents and financial planners trying to convince 
the veterans to make quick decisions about pursuing aid and attendance 
in addition to their pension incomes. Some scammers use false 
representations like suggesting automatic entitlement to benefits. Of 
greater concern, though, are those who help the veteran restructure 
financial assets in order to qualify for pension and/or aid and 
attendance. For example, moving financial assets into a pooled-asset 
irrevocable trust might render a veteran eligible for pension and aid 
and attendance, despite having assets in excess of the qualifying 
income thresholds. While it appears that this benefits the veteran, 
what these salesmen do not tell them is that this type of restructuring 
might preclude them from Medicaid eligibility because of rules such as 
a five-year look-back period, which considers whether one has moved 
substantial assets at less than market value. These financial products 
are specifically managed by the alleged ``veterans advocates'' who are 
offering to help veterans secure enhanced benefits from VA. There is an 
objective conflict of interest, and implementing standards to protect 
against this behavior is necessary.

H.R. 3656, a bill to provide a consistent eligibility date for 
    headstones and markers

    PVA supports H.R. 3656, which would establish a consistent 
eligibility date for provision of memorial headstones and markers for 
eligible non-veteran individuals. Currently, spouses and children have 
different eligibility dates, sometimes forcing VA to provide a marker 
for the parent, but not the children. This bill would reconcile this 
arbitrary difference and treat spouses and children the same.

H.R. 3657, a bill to authorize provision of headstones and markers in 
    tribal cemeteries

    Consistent with our prior support for H.R. 1390, which would expand 
VA's authority to transport the remains of a deceased veteran to a 
tribal cemetery or state cemetery instead of a national cemetery, we 
likewise support this bill which ensures that the accompanying 
benefits, such as a headstone or marker, are provided to veterans 
buried in tribal cemeteries.

Draft Bill, the ``Veterans Fair Debt Notice Act of 2017"

    Failure to resolve debt issues in a timely manner can have a 
lasting, catastrophic impact on a veteran. It is not uncommon for a 
veteran to find that the Veterans Health Administration (VHA) has 
updated contact information, while the Veterans Benefits Administration 
(VBA) does not, or vice versa. So if VBA sends out notice of 
overpayment of benefits, or some other circumstances producing a debt 
owed by the veteran, it is essential that VBA know whether that notice 
actually reached the veteran prior to the veteran going into default. 
It is important to ensure that veterans are not going into default for 
lack of notice, especially in circumstances where the debt itself is a 
product of VA's mistakes and overpayments.
    Mr. Chairman and members of the Subcommittee, we appreciate your 
commitment to ensuring that veterans receive the best benefits and care 
available. We look forward to working with the Subcommittee and would 
be happy to answer any questions you or the members may have.

                                 <F-dash>
                 Prepared Statement of Kathleen Moakler
            TRAGEDY ASSISTANCE PROGRAM FOR SURVIVORS (TAPS)
    Tragedy Assistance Program for Survivors (TAPS) is the national 
organization providing compassionate care for the families of America's 
fallen military heroes. TAPS provides peer-based emotional support, 
grief and trauma resources, grief seminars and retreats for adults, 
`Good Grief Camps' for children, case work assistance, connections to 
community-based care, and a 24/7 resource and information helpline for 
all who have been affected by a death in the Armed Forces. Services are 
provided to families at no cost to them. We do all of this without 
financial support from the Department of Defense. TAPS is funded by the 
generosity of the American people.
    TAPS was founded in 1994 by Bonnie Carroll following the death of 
her husband in a military plane crash in Alaska in 1992. Since then, 
TAPS has offered comfort and care to more than 70,000 bereaved 
surviving family members. For more information, please visit 
www.TAPS.org.
    TAPS currently receives no government grants or funding.

Kathleen Moakler

    Kathleen joined TAPS in 2015 and is honored to work with America's 
frontline resource offering compassionate care for all those grieving a 
death in the Armed Forces. She works with policy makers and military 
and veteran advocacy organizations to ensure that surviving families' 
benefits and support services are protected and surviving families 
receive the most up to date information on any changes to their 
benefits. Kathleen comes to TAPS with 20 years of military family 
advocacy experience including protecting and enhancing surviving 
military family benefits, serving as past co-chair of the Survivor 
Program Committee for the Military Coalition, sitting on the DoD/VA 
Survivors Forum, and testifying numerous times before Congress on 
behalf of surviving military families. She also represented military 
families on the Congressionally-mandated Department of Defense Military 
Family Readiness Council.
    An Army spouse, active duty and retired, for over 40 years, she 
holds a Bachelor of Science degree in Business Administration from the 
State University of New York at Albany. Mrs. Moakler was honored to 
receive the Gold Star Wives of America 2015 Award of Excellence. 
Parents of three adult children and new grandparents to two military 
kids, Kathleen and her husband, Colonel Martin W. Moakler Jr. USA 
(retired), reside in Alexandria, Virginia.
    Chairman Bost, Ranking Member Esty and distinguished members of the 
Disability Assistance and Memorial Affairs Subcommittee of the House 
Veterans Affairs Committee, the Tragedy Assistance Program for 
Survivors (TAPS) thanks you for the opportunity to make you aware of 
issues and concerns of importance to the families we serve, the 
families of the fallen.
    While the mission of TAPS is to offer comfort and support for 
surviving families, we are also committed to improving support provided 
by the Federal government through the Department of Defense (DoD) and 
the Department of Veterans Affairs (VA), state governments and local 
communities for the families of the fallen--those who fall in combat, 
those who fall from invisible wounds and those who die from illness or 
disease.
    We thank you for the provisions included in the Jeff Miller and 
Richard Blumenthal Veterans Health Care and Benefits Improvement Act of 
2016 including the expansion of eligibility for the Marine Gunnery 
Sergeant John David Fry Scholarship for spouses and clarification of 
eligibility for in-state tuition benefits for those using the Fry 
Scholarship. We are grateful for the Committee's focus on improving 
survivor benefits.
    We are most appreciative the passage of the Harry W. Colmery 
Veterans Educational Assistance Act of 2017. This will be most 
beneficial for survivors who are benefitting from the Fry scholarship 
and the Dependents Education Allowance. We will be working closely with 
the VA on the law's implementation.
    TAPS would like to recognize the outstanding support we receive 
from the Department of Veterans Affairs (VA) on behalf of the survivors 
we serve. For several years we were honored to have a Memorandum of 
Agreement (MoA) with the education specialists in the office of 
Economic Opportunity in the Veterans Benefits Administration enabling 
TAPS and the VA to work most efficiently in solving problems that 
surviving spouses and children encountered while accessing their VA 
education benefits. This relationship also allowed the VA to discover 
areas where policy or procedural processes could be improved so they 
could serve survivors more effectively.
    The VA Office of Survivor Assistance, including director Moira 
Flanders and her staff, works closely with TAPS to answer questions and 
concerns that are raised by surviving family members. We also 
appreciate the opportunities provided by the DoD/VA Survivors Forum, 
held quarterly, which works as a clearinghouse for information on 
government and private-sector programs and policies affecting surviving 
families. This is ably facilitated by Craig Zaroff of the VA Benefits 
Assistance Service.
    TAPS was recently honored to enter into a new and expanded 
Memorandum of Agreement with the Department of Veterans Affairs. VA 
Secretary Shulkin and TAPS President Bonnie Carroll signed the MOA on 
April 12 at a ceremony attended by many of the same survivors who will 
benefit from it. This agreement formalizes what has been a long-
standing, informal working relationship between TAPS and the VA. The 
services provided by TAPS and VA are complimentary, and in this public-
private partnership each will continue to provide extraordinary 
services through closer collaboration.
    Under this agreement, TAPS continues to work with surviving 
families to identify resources available to them both within the VA and 
through private sources. TAPS will also collaborate with the VA in the 
areas of education, burial, benefits and entitlements, grief counseling 
and other areas of interest.

Debt Notification

    Imagine you are a surviving spouse or dependent who opens a letter 
from the VA that notifies you that you suddenly owe the VA several 
thousand dollars and they would like payment in a lump sum as soon as 
possible. The only explanation is that there has been a change in 
benefits and you have been overpaid. While they provide an 800 number 
for you to call, every time you call the number is busy. Before you 
know it, a third letter has been sent, still without an definitive 
explanation of what the cause of the debt is and containing an ominous 
warning that you are subject to having your wages garnished, VA 
benefits withheld and that your debt has been sent to a collection 
agency.
    As those in receipt of survivor benefits can tell you, it can often 
be confusing tracking which payment comes from which agency (DoD, VA or 
Social Security). Many are often still in a fog of grief and mail can 
lie unopened, and even unopened mail can appear to be daunting as one 
sifts through legalese and unfamiliar terms. In a perfect world, each 
survivor would set up a ledger, accounting for every payment and being 
aware themselves when an overpayment has been made. Unfortunately, not 
everyone is equipped with the financial acumen to accomplish this 
tracking. It can be even more confusing in dealing with education 
benefits, when funds are also impacted by the institutions of higher 
learning and their rules and very often, sharing of misinformation.
    TAPS has developed many programs in response to the needs presented 
to us by the surviving families we serve. Indicative of the specialized 
support that TAPS provides is the education portal and individualized 
support on the education benefits available for the children of 
America's fallen heroes. TAPS staff members work with each individual 
to maximize the financial support they can receive to complete their 
education from both government and private agencies. As mentioned 
previously, TAPS has been honored to enter into an MOA with the VA to 
facilitate the delivery of benefits, including education benefits and 
to troubleshoot problems for families that reach out to us. We have 
helped many families resolve their issues with debt collection.
    TAPS is pleased that this committee is considering legislation to 
further clarify the debt notification process of those in receipt of VA 
benefits. We were fortunate to receive a briefing from the VA Debt 
Management Center (DMC) at the July 2017 meeting of the DoD/VA 
Survivors Forum. The briefing clearly outlined the processes and 
procedures that the DMC uses to notify and to collect the debt owed. 
Since this briefing was aimed at those who work with benefit 
recipients, there was even a special phone number provided that veteran 
service organizations and other helping agencies can use to expedite 
the communication process for those who receive debt notification 
letters.
    The procedures as outlined in the DMC brief appear to be designed 
to make the process easier for the customer (survivor or veteran). The 
procedures are in place. The stumbling block is in making it easier to 
connect the survivor or veteran with the assistance that DMC provides. 
Clarification of the reason for the debt in easy to understand language 
(as called for in the proposed legislation) would go a long way in 
improving communication and access. Reinforcing the importance and 
urgency of the debt letter received from the VA by sending it by 
certified mail will also help to insure that the beneficiary responds 
in a timely manner. We are grateful that the legislation addresses 
these two important steps in the process.
    We suggest that further assists may be required, as indicated in 
our anecdotes from survivors below. It appears that more staff at the 
800 number call centers or some evening or weekend hours might be 
necessary to keep those in receipt of the notices from being 
discouraged when they cannot be connected in a timely manner.

    We asked some of our surviving family members to share their 
stories:

    Meagan Staats, surviving spouse of SSG David Staats, was double 
paid for Fry and DEA during the switchover in 2015. She received 
letters from VA debt management saying that they would deduct the 
amount from her Fry BAH. They did not. She calls VA and they don't see 
the debt in the system so she continues to get BAH and never received 
any letters to pay, until her credit is hit because it was sent to 
collections. She called and paid it off immediately but had no clue how 
to get through the VA system when VA education and VA debt management 
were telling her 2 different things.

    Ashlynne Haycock- Ashlynne, a surviving child, was enrolled in 
college during the switchover from DEA to Fry and was reimbursed for 
the difference in benefits between years 2009-2010. Two years later she 
got a letter from VA debt management claiming she had been overpaid, 
but with no explanation of what she had been overpaid for. Ashlynne 
called the VA debt management phone number weekly for 2 years and never 
got an answer. In the meantime VA sent it to collections, her tax 
return payments were garnished and her credit rating was impacted 
negatively. The only reason she ever got her problem resolved was 
because she came to work for TAPS and TAPS at the time had an education 
MOA with VA. Ashlynne asked her point of contact at VA to look into it 
and it turned out that VA had made the mistake by listing her as having 
received multiple benefits simultaneously. The error was on VA's part 
and it took over 4 years for Ashlynne to figure out what the problem 
was to correct it. Once the problem was identified, the VA did refund 
her tax return amounts and worked to remove the negative reports from 
her credit report.

    Shannon Rushford- Shannon received educational benefits under Fry 
for almost 3 years before she got a letter from VA debt management 
claiming she owed $80k to VA for benefits paid in error. Ms. Rushford 
could not figure out what the reasoning for the debt was and could not 
reach anyone at VA to explain it. She contacted TAPS Education 
Services, who through our MOA learned that Shannon was not actually Fry 
eligible because her father had been medically retired for 4 hours when 
he passed in the line of duty. VA made the error in processing her 
benefits and it took them 3 years to realize it. Fortunately, VA 
forgave the debt as the payments were an error on VA's part but had she 
not had contact with TAPS she may never have figured out what the debt 
was for.

Headstone and Marker Eligibility for Survivors

    TAPS supports H.R. 3657 which expands eligibility for headstones 
and markers for eligible surviving spouses and dependents for those 
buried in tribal cemeteries. We also support H.R. 3656 which clarifies 
the date of eligibility for a headstone and marker for eligible 
surviving spouses and dependents of those veterans whose remains are 
unavailable.

Veterans Care Financial Protection Act of 2017

    TAPS supports H.R. 3122 which calls for added financial protections 
for those survivors in receipt of aid and attendance. They are among 
our most vulnerable populations for fraud and financial abuse.
    TAPS is grateful for the subcommittee's consideration of the 
proposed legislation. We know that this subcommittee has been at the 
forefront for protecting survivors and for crafting benefits that 
recognize their sacrifice.

It is the responsibility of the nation to provide for the support of 
    the loved ones of those who have paid the highest price for 
    freedom. Thank you for allowing us to speak on their behalf.

                                 <F-dash>
                   Prepared Statement of John Towles
                            WITH RESPECT TO
   H.R. 1721, H.R. 1900, H.R. 3122, H.R. 3656, H.R. 3657, and Draft 
                              Legislation
    Chairman Bost, Ranking Member Esty and members of the Subcommittee, 
on behalf of the men and women of the Veterans of Foreign Wars of the 
United States (VFW) and its Auxiliary, thank you for the opportunity to 
provide our remarks on legislation pending before this subcommittee.

H.R. 1721, to direct the Secretary of Veterans Affairs to designate at 
    least one city in the United States each year as an ``American 
    World War II City'', and for other purposes.

    The VFW supports this legislation, which would direct the Secretary 
of Veterans Affairs VA to designate at least one city in the United 
States each year as an ``American World War II City'' based on the 
city's contributions to the war effort during World War II and their 
efforts to preserve the history of such contributions. This legislation 
would serve to recognize the contributions and preservation efforts 
made to the war by communities all across the United States, and 
incentivize cities to honor the memory of the sacrifices made by WWII 
veterans.
    Throughout the past few years, multiple attempts have been made to 
pass similar legislation that would give the Secretary of Veterans 
Affairs the authority to make this designation, and while most of those 
attempts have passed the House, they have all failed in the Senate. In 
general, the VFW supports legislation that seeks to recognize veterans 
and preserves the military history of our greatest generation.

H.R. 1900, National Veterans Memorial and Museum Act

    The VFW supports this legislation, which would designate the 
Veterans Memorial and Museum, which is currently being constructed in 
Columbus, Ohio, as the National Veterans Memorial and Museum.
    Continuing the legacy left by the late Senator John Glenn, the 
museum would serve as a civic landmark to honor, connect, inspire and 
educate visitors about the service and sacrifice of all our nation's 
service men and women. The creation of this institution would have a 
profound, lasting impact on every American and would help instill a 
deeper meaning to the freedoms we all enjoy.
    The VFW has always advocated on behalf of those who have given the 
most to this nation. Whether that means ensuring that veterans are 
respected for their service, receive their earned benefits, or are 
recognized for the sacrifices they and their loved ones have made on 
behalf of this great country, we have consistently led the way.
    These tenants are directly reflected by the creation of this 
institution, and it will serve as a reminder to all those who visit 
that true patriotism begins with service over self. With nearly 21 
million veterans alive today, we must ensure that we have a specific 
and special place to celebrate their service and honor the sacrifice of 
our veterans from all branches of our military and from all eras of 
war.
    While there are several museums and monuments dedicated to specific 
branches and eras, our country currently lacks a museum specifically 
dedicated to honoring and preserving the collective sacrifices made by 
this nation's veterans. This museum would serve to fill that gap and 
serve as a constant reminder to all of the importance and value of 
military service by honoring the contributions of our veterans; 
educating the public about what it means to serve; and, ensuring that 
our veterans, regardless of the location, branch, or era in which they 
served, have a nationally designated facility to call their own.

H.R. 3122, Veterans Care Financial Protection Act of 2017

    The VFW strongly supports this legislation, which would address and 
correct many of the oversight and accountability problems that have 
plagued the Aid and Attendance (A&A) program for some time by directing 
the Department of Veterans Affairs (VA) to work with other federal 
agencies to develop standards that would protect veterans receiving A&A 
benefits from dishonest and predatory business practices.
    As the number of elderly veterans increases, so too does the need 
to provide them with additional assistance that enables them the 
ability to complete day to day activities, but these services can be 
extremely expensive. Many veterans depend on the A&A program because it 
enables them to obtain these services. However, because of poor 
oversight, many veterans are being taken advantage of by individuals 
claiming to be ``consultants'', and in some circumstances, even 
retirement homes. Not only do these practices cost the federal 
government millions in taxpayer dollars, but often times result in the 
veteran being responsible for repaying any debt that is incurred, which 
makes an unstable financial situation even worse.
    Far too often, veterans and service members are victimized by 
individuals, businesses, and organizations simply due to their unique 
financial situation and their circumstances. It is unfortunate that 
legislation such as this even needs to exist. However, so long as the 
need is there, the VFW will support any measure meant to protect the 
financial well-being of those who are most at risk.

H.R. 3656, to amend title 38, United State Code, to provide for a 
    consistent eligibility date for provision of Department of Veterans 
    Affairs memorial headstones and markers for eligible spouses and 
    dependent children of veterans whose remains are unavailable.

    The VFW supports this legislation which would codify the date of 
eligibility for VA provided headstones and markers for the spouse and 
any dependent children of a veteran whose remains are unavailable on or 
after November 11, 1998.
    H.R. 3656 would ensure a consistent applicability date for 
provision of memorial headstones and markers for eligible non-veteran 
individuals. Under present law, each class of non-veterans eligible to 
receive a headstone or marker has a different applicability date. For 
example, a surviving spouse who dies on or after November 11, 1998, is 
eligible for a headstone or marker. However, only dependent children 
who die on or after December 22, 2006, are eligible.
    According to VA, most of the issue revolves around people who go 
missing at sea due to a boating or plane accident. There are situations 
in which VA may be able to provide a marker for the parent, but not the 
child due to the inconsistency in the dates.

H.R. 3657, to amend title 38, United States Code, to authorize the 
    Secretary of Veterans Affairs to provide headstones and markers for 
    the graves of spouses and children of veterans who are buried in 
    tribal cemeteries.

    The VFW supports this legislation, which would expand the headstone 
and marker eligibility for spouses and dependent children buried in 
tribal cemetery.
    American Indians and Alaskan Natives have served in every branch of 
our military for over 200 years. An estimated 156,000 veterans identify 
as American Indian/Alaska Native veterans, and the Department of 
Defense reports that there are around 20,000 service members who 
identify as being American Indian/Alaskan Natives.
    While current law provides headstones and markers only for the 
graves of spouses and children of veterans who wish to be laid to rest 
in a national cemetery or veterans cemetery owned by a State, the VFW 
believes that H.R. 3656 is a common sense fix which would ensure that 
the families of those who are eligible, and wish to be buried on tribal 
land, can do so.

Draft Bill, Veterans Fair Debt Notice Act of 2017

    The VFW strongly supports this legislation, which would require VA 
to use certified mail and plain language when notifying a veteran about 
debts related to their benefits program, including written demands from 
VA, requests for waivers from the debtor, and notifications concerning 
the debt.
    Almost 187,000 overpayment notices were sent from VA to veterans 
and their families in 2016, many of which were erroneous. When this 
happens, a debt notice is sent out by VA, regardless of the nature of 
the debt. However, often times the language is ambiguous, and gives no 
clear options to request recourse, which leaves many fearful of the 
process as a whole.
    To make matters worse, the contact information that VA has for the 
veteran in many instances is incorrect, which can lead to inaction by 
the veteran, resulting in the debt going to a collections agency, or 
their pensions being garnished until the debt is satisfied or until the 
veteran can prove that the debt is erroneous.
    By requiring debt notifications be made in easy to understand 
language via certified mail, veterans would be able to understand what 
they need to do in order to ensure that the issue is addressed in a 
timely manner, and VA will be able to ensure that they have the correct 
contact information on file for the veteran.
    Mr. Chairman, this concludes my testimony. The Veterans of Foreign 
Wars sincerely appreciates the opportunity to provide views on these 
important bills, and I am prepared to take any questions you or the 
subcommittee members may have.

                                 <F-dash>
                        Statement For The Record

                 COAL - Timeline CITYGovts Preservation
        Local World War II History Preservation Accomplishments
Involving Governments of the City of Wilmington and New Hanover County, 
                             North Carolina
                       Timeline, 1946 to Present

    September 11, 2017

    1946 - City of Wilmington acquires the Second & Orange Streets WWII 
USO building from Federal Government, opens it as Community Center. 
City still owns it.

    ca. 1990 - City works with local group and State highway department 
to dedicate historical marker to WWII shipyard at Carolina Beach Rd. & 
Shipyard Blvd.

    ca. Early 1990's - City collaborated on successful effort to have 
Community Arts Center (name changed) placed on National Register of 
Historic Places.

    ca. Early 1990's - County Commission and American Legion Post 10 
dedicate memorial in Hugh MacRae Park to wartime dead. City, County and 
Post 10 collaborate on installation of portrait montages in public 
buildings honoring Wilmington's Medal of Honor recipients.

    1995 - City participates with Battleship North Carolina and private 
parties to commemorate 50th anniversary of end of WWII.

    1997 - City plans to demolish the CAC and sell property to St. 
John's Art Museum (across the street) which would build on the 
property. Immediate opposition forms: Thalian Association, which 
manages the building for the City; ad hoc Community Arts Center Accord; 
and native Wilmingtonian historian Wilbur Jones, new resident. City 
withholds action.

    1997/8 - New Hanover County Commission acquires land for Veterans 
Park which will contain new high school named for Vietnam War 
Wilmington Medal of Honor recipient Sgt. Eugene Ashley, and new middle 
school for Wilmington WWII Medal of Honor recipient Col. Charles P. 
Murray, Jr.

    1997-2000 - Pressure by the three parties (Jones now chairs the 
newly formed WWII Wilmington Home Front Heritage Coalition and takes 
the lead) on City Council and staff continues. City Council and senior 
staff save the building.

    1998 - New Hanover County School Board officially names Murray 
Middle School. County Commission names park's thoroughfare street 
William D. Halyburton, Jr. Drive, for Wilmington Navy Medal of Honor 
posthumous recipient.

    1999 - City and County governments participate in 18-month long, 
125-event Wartime Wilmington Commemoration.

    2000 - City Council votes 7-0 to save, renovate, and preserve the 
CAC as a WWII site and community venue. City paints the building's 
exterior the original colors.

    2001 - City, County, and County School Board elected officials 
participate in Veterans Park groundbreaking for Murray Middle School 
and Ashley High School.

    2001 - City officials participate in CAC 60th anniversary with 
WWII-themed events and USO big band swing dance.

    2002 - City installs historic marker at Shipyard Blvd. and Carolina 
Beach Rd. at site of first German prisoner of war camp (1944).

    2002/05/08 - City collaborated with WWII Wilmington Coalition to 
produce three editions of the ``World War II Heritage Guide Map of 
Wilmington and Southeastern North Carolina.'' City donated $6,500 in 
2008.

    2003 - School Board dedicates new masonry memorial at New Hanover 
High School honoring its WWII Medal of Honor graduates, Murray and 
Halyburton.

    2004 - City dedicates new William D. Halyburton, Jr. Memorial 
(natural) Park.

    2004 - County's Cape Fear Museum of History & Science opens 
permanent WWII exhibit.

    2005 - City Council appropriates $2.1 million to renovate and 
restore (to WWII appearance) the CAC.

    2005-Present - City, County, and School Board elected officials 
participate in numerous WWII historic preservation and dedication 
events in HBHUSO/CAC as speakers, including (partial):

    Late Wilmingtonian WWII veteran John Burney WWII memorabilia 
collection, 2010;
    New Hanover County Aviators Memorial, 2010;
    National (Washington) WWII Memorial giclee, 2013;
    WWII veterans meet-and-greet jamborees, 2005/09;
    WWII-USO type big-band swing dances, 2006/09/12/15;
    Memorial plaques to Murray-Halyburton and 248 County WWII dead, 
2012; Memorial to Wilmingtonian Lt. Gen. George Boylan, USAF, WWII 
bomber pilot, 2016.

    2006 - City Council renames the building the Hannah Block Historic 
USO/Community Arts Center (HBHUSO/CAC). Block, a wartime entertainment 
fixture there, is known as ``Mrs. WWII Wilmington.''

    2007 - City-approved and authorized HBHUSO/CAC renovation and 
restoration work begins. All activities are relocated.

    2008 - City Council and County Commission unanimously pass 
resolutions proclaiming Wilmington as ``America's WWII City.'' 
Continuing project to seek national recognition begins, led by WWII 
Wilmington Home Front Heritage Coalition (now a 501c3, all-volunteer 
preservation organization).

    2008 - Over July 4th Star Spangled Weekend, City and County elected 
officials participate in HBHUSO/CAC re-dedication of renovated and 
restored building with WWII themed events and USO swing dance. City's 
$2.1 million is augmented by thousands raised by private parties to 
turn lobby area into mini-museum of the home front - perfect example of 
public-private partnership.

    2008 - City dedicates new historic marker at 10th & Ann Sts. site 
of second German POW camp (1944).

    2008 - City Council creates HBHUSO/CAC Advisory Board consisting of 
private sector representatives from the arts and history communities to 
monitor and advise the Council on the building's operations, 
maintenance, and welfare, and appoints first 9-member board.

    2008-Present - City continues to provide maintenance, upkeep, and 
graphics/design support for the HBHUSO/CAC and WWII-related activities.

    2010 - City Council and County Commission endorse congressional 
legislation (introduced by Rep. McIntyre) that would designate 
Wilmington as the first ``American WWII City.'' McIntyre again, and 
Sens. Burr and Tillis, and Rep. Rouzer, also would introduce similar 
legislation.

    2011 - City officials participate in HBHUSO/CAC 70th anniversary 
salute to area Battle of the Bulge veterans and educational experience 
for elementary school students.

    2012 - City, County and School Board elected officials participate 
in re-dedication of Medal of Honor memorial garden at New Hanover High 
School.

    2013/15 - City installs new lobby track lighting to highlight 
museum exhibits.

    2014 - City, County, and School Board collaborate with private 
parties to preserve and relocate County's lone memorial to its World 
War I dead.

    2016 - City donates $5,000 for HBHUSO/CAC's 75th anniversary. WWII 
Coalition and Thalian Association Community Theater present a Veterans 
Day weekend of original musical play, ``Mrs. WWII Wilmington: We Fell 
in Love at the USO.'' City officials participate.

    2017 - City currently working with HBHUSO/CAC manager to install 
new rehearsal room floor and interior security cameras to protect WWII 
exhibits access.

   Compiled by World War II Wilmington Home Front Heritage Coalition
              Captain Wilbur Jones, USNR (Ret.), Chairman
                    910-793-6393 - <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="cba1a4a5aeb8bcaf8baea8e5b9b9e5a8a4a6">[email&#160;protected]</a>

                                 <F-dash>
                        Questions For The Record

                         LETTER FROM BOST TO VA
    October 4, 2017

    The Honorable David J. Shulkin, M.D.
    Secretary
    U.S. Department of Veterans Affairs
    810 Vermont Ave, NW
    Washington, D.C. 20420

    Dear Secretary Shulkin:

    Thank you for the testimony provided by the Department of Veterans 
Affairs for the September 13, 2017, Subcommittee on Disability 
Assistance and Memorial Affairs legislative hearing on H.R. 1721 ; H.R. 
1900; H.R. 3122; H.R. 3656; H.R. 3657; and, a draft bill entitled 
``Veterans Fair Debt Notice Act of 2017.''
    I would appreciate receiving your answers to the hearing questions 
below by 5:00 P.M. on November I, 2017:

    1. Please provide a detailed description of the procedures VA has 
in place to protect veterans who receive pension with Aid and 
Attendance benefits from fraud and abuse.

    2. Please provide a detailed list of the federal and state agencies 
VA is currently working with to protect the following vulnerable 
veteran populations from fraud and abuse:

    a. Veterans who are age 65 and older.

    b. Veterans with a VA appointed fiduciary.

    c. Veterans receiving pension with Aid and Attendance benefits.

    d. For each agency listed, please include a detailed description of 
how VA is currently working with that agency, disaggregated by 
population, to protect such vulnerable veterans from fraud and abuse.

    3. In cases where a veteran does not respond to the initial demand 
and notification letter sent by the DMC, please provide a detailed 
description of the additional steps VA takes to ensure that the veteran 
is aware that the overpayment has been created.

    4. Does VA have plans to improve the timeliness of the Department's 
response to veterans who request additional information regarding the 
reason the alleged overpayment was created?

    a. If yes, please provide a detailed description of the plan.

    b. If no, why not?

    5. Is VA planning to improve the content of its demand and 
notification letters to ensure that veterans understand the underlying 
reasons for the creation of an alleged overpayment?

    a. If yes, please provide a detailed description of the plan.

    b. If no, why not?

    In an effort to reduce printing costs, the Committee on Veterans' 
Affairs, in cooperation with the Joint Committee on Printing, would 
appreciate your answer provided consecutively and single-spaced. In 
addition, please restate the question in its entirety before the 
answer.
    Due to the delay in receiving mail, please provide your response to 
Maria Tripplaar, Staff Director and Counsel ofthe Subcommittee on 
Disability Assistance and Memorial Affairs, at Maria 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="2f7b5d465f5f434e4e5d6f424e46430147405a5c4a0148405901">[email&#160;protected]</a> Please also send a courtesy copy to Ms. 
Alissa Strawcutter at <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="8aebe6e3f9f9eba4f9fef8ebfde9fffefeeff8cae7ebe3e6a4e2e5fff9efa4ede5fca4">[email&#160;protected]</a> Ifyou have any 
questions, please call Ms. Tripplaar at (202) 225-9164.

    Sincerely,

    Mike Bost
    Chairman
    Subcommittee on Disability Assistance and Memorial Affairs

    cc: The Honorable Elizabeth H. Esty, Ranking Member, Subcommittee 
on Disability Assistance and Memorial Affairs

    MB/ks

                                 <F-dash>
                    VA RESPONSE TO LETTER FROM BOST
Chairman Mike Bost

    1. Please provide a detailed description of the procedures VA has 
in place to protect veterans who receive pension with Aid and 
Attendance benefits from fraud and abuse.

    VA Response: VA agrees that Veteran pension claimants and 
beneficiaries should be protected from dishonest, predatory, or 
otherwise unlawful practices. VA has begun providing written 
notification to Veterans pension beneficiaries of changes to their 
personal information, such as address or banking information. Also, if 
a Veteran's medical condition indicates that there may be a mental, 
cognitive, or physical disability, which would limit the Veteran's 
ability to manage their VA funds, VA initiates the process to include 
the Veteran in its Fiduciary Program. The Fiduciary Program was 
established to protect Veterans who, due to injury, disease, or due to 
age, are unable to manage their funds. Additionally, VA claims 
adjudicators may recommend that information be forwarded to the VA 
Office of the Inspector General (OIG), if they receive an indication of 
fraud or abuse.
    VA works closely with Veterans Service Organizations (VSO) and 
other stakeholder organizations to ensure their employees and members 
understand predatory practices and share this information with 
Veterans.
    Additionally, the VA Office of the General Counsel (OGC) 
administers an accreditation program for individuals and organizations 
that represent claimants before VA and has authority to grant, suspend, 
or revoke accreditation. If it is believed that a VA-accredited 
attorney, agent, or VSO representative has acted in an illegal or 
unethical manner, a complaint can be filed with VA. OGC is authorized 
to investigate complaints and remove an attorney, agent, or VSO 
representative's VA accreditation, when appropriate. However, VA does 
not have authority to regulate activities of individuals and entities 
involving the marketing of financial products and legal instruments. 
OGC may refer matters to other appropriate State and Federal law 
enforcement authorities.
    Finally, VA published proposed rulemaking in January 2015 (2900-
AO73, Net Worth, Asset Transfers, and Income Exclusions for Needs-Based 
Benefits) as a means to protect Veterans and survivors from potential 
predatory practices by establishing a look back and penalty period for 
pension. Currently, the final rule is pending final concurrence within 
VA. This rule will reduce opportunities for certain organizations such 
as financial attorneys and advisors to take advantage of pension 
claimants and preserve the integrity of the pension program. The 
revised rules restrict financial advisors' ability to restructure 
assets that, in many cases, render the claimant ineligible for the 
other needs-based benefits. Barring any unforeseen impediments, it is 
anticipated that this rule will be finalized by the end of FY 2018.

    2. Please provide a detailed list of the federal and state agencies 
VA is currently working with to protect:

    a. Veterans who are age 65 and older.

    b. Veterans with a VA appointed fiduciary.

    c. Veterans receiving pension with Aid and Attendance benefits.

    d. For each agency listed, please include a detailed description of 
how VA is currently working with that agency, disaggregated by 
population, to protect such vulnerable veterans from fraud and abuse.

    VA Response: Veterans who are age 65 and older and Veterans 
receiving pension with Aid and Attendance benefits. VA has consulted 
with the Federal Trade Commission and Consumer Financial Protection 
Bureau regarding the unscrupulous practices of individuals and entities 
that advise pension claimants that they can use the program as an 
estate planning tool, and has shared its outreach products with those 
agencies. As noted above, VA also works closely with VSOs to ensure 
that their employees and members are fully aware of the potential for 
predatory practices.
    Additionally, VA works with relevant Federal agencies, States, and 
other experts to leverage the expertise necessary to further regulate 
the financial services or legal instruments industries and protect 
against unlawful practices. Relevant expertise or experience can be 
found in the Department of Justice, Securities and Exchange Commission, 
State Attorney General Offices, and various other State agencies that 
are charged with protecting consumers or monitoring the activities of 
specific industries or professions. VA welcomes the opportunity to work 
with these agencies and share information about common predatory 
practices involving VA benefits, particularly VA pension, to help 
identify and enforce existing standards and to develop additional 
standards where appropriate. Furthermore, these agencies may already 
have authority to address the problem that is the subject of H.R. 3122.
    Veterans with a VA appointed fiduciary. The fiduciary program 
coordinates with Adult Protective Services and Social Security 
Administration State and Federal agencies before, during, and after a 
fiduciary appointment. During the fiduciary appointment process, field 
examiners determine the well-being of beneficiaries that have been 
rated incompetent to manage their VA benefits due to injury, disease, 
advanced age, or being a minor. If a field examiner suspects abuse, 
neglect, or exploitation of a beneficiary, they contact the appropriate 
local adult protective services agency. VA also coordinates with state 
family and probate courts for appointment and annual financial 
reporting when a beneficiary has been given a guardian or conservator 
by that state court.
    When a beneficiary or third party suspects that a beneficiary's 
funds are being misused, VA contacts State and Federal agencies, when 
appropriate, during the misuse investigation. For example, VA refers 
any case to the Social Security Administration when a VA fiduciary 
misuses funds and the fiduciary is also the representative payee for 
Social Security benefits, or when the fiduciary serves multiple 
beneficiaries. VA also reports misuse of federal civil retirement 
benefits to the Office of Personnel Management Office of Inspector 
General, and reports misuse of military retired pay or military 
survivor benefits to the Defense Finance and Accounting Service. 
Additionally, VA coordinates its investigations, when appropriate, with 
the Department of Justice on the Elderly Justice Initiative, National 
Center for Victims of Crime, U.S. Postal Inspection Service, Federal 
Bureau of Investigation, as well as over 770 State agencies.

    3. In cases where a veteran does not respond to the initial demand 
and notification letter sent by the DMC, please provide a detailed 
description of the additional steps VA takes to ensure that the veteran 
is aware that the overpayment has been created.

    VA Response: The Debt Management Center (DMC) undertook numerous 
risk mitigation strategies in fiscal year (FY) 2017 to enhance Veteran 
awareness of overpayment debts and implemented new processes to limit 
potential negative effects of Veteran benefit offset. First, DMC 
revised its notification letters to provide a plain language read while 
including necessary due process notification. Secondly, the Secretary 
approved an Extended Repayment Period on Veteran Benefits (up to 5 
years) without validation of financial hardship in cases where delays 
in processing could or have exacerbated a Veteran's financial 
situation. In the case of collection, DMC proceeds along two avenues, 
which are determined by whether a Veteran has disability compensation 
benefits to offset.
    Benefits to Offset: DMC provides a notice of indebtedness letter, 
which notifies the debtor of their debt and provides them 60 days to 
respond before an offset will begin. In FY 2017, DMC underwent 
programming changes to install an automatic 12-month repayment plan 
into the Compensation and Pension accounts receivable information 
technology system. This upgrade was launched in July 2017 and provides 
a grace period to repay debts over 12 months. Prior to this upgrade, 
DMC offset the entire benefit amount until the debt was paid in full or 
DMC would offset the necessary amount to pay off the debt if the whole 
was not needed. In this situation, Veterans who are unaware of their 
debt are exposed to less risk as now only 1/12th of their benefit will 
be offset each month. In these cases, the Veteran will normally proceed 
with contacting DMC to further work out payment arrangements, request a 
waiver, dispute and or provide a compromise offer.
    No Benefits to Offset: DMC provides up to five letters within a 120 
window notifying debtors of their debts before being required to refer 
their debt to the Department of the Treasury for collection. During 
this timeframe, a debtor must contact DMC to either dispute, request a 
waiver, enter a payment plan or provide a compromise offer. If a debtor 
is referred to Treasury, they can still dispute or request a waiver but 
must make payment arrangements with Treasury.

    4. Does VA have plans to improve the timeliness of the Department's 
response to veterans who request additional information regarding the 
reason the alleged overpayment was created?

    a. If yes, please provide a detailed description of the plan.

    b. If no, why not?

    VA Response: Yes, DMC provides Veteran and beneficiary responses in 
collaboration with the Veterans Benefits Administration (VBA). The 
Minneapolis/St. Paul regional office (RO) works with Veterans to 
acquire correct information before the debt is established. Once 
established, Veterans can work with both DMC and/or the RO to acquire 
additional information, which could include an audit or detailed 
explanation of the overpayment. DMC grew its staff by 21 percent over 
the past two FYs and will add an additional 22 debt counselors in FY 
2018 to increase our responsiveness to debtor inquiries. DMC does not 
create the debt yet DMC trains its personnel to answer these inquiries. 
If DMC finds a debt to be created in error, DMC will suspend collection 
on the debt and notify the appropriate RO for action.

    5. Is VA planning to improve the content of its demand and 
notification letters to ensure that veterans understand the underlying 
reasons for the creation of an alleged overpayment?

    a. If yes, please provide a detailed description of the plan.

    b. If no, why not?

    VA Response: Yes, DMC partnered with VBA and the Veterans 
Experience Office to improve our debt notification letters. The new 
letters are worded more compassionately to ensure a better Veteran 
experience.

                                 <all>
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
